No. 19A-____

IN THE

Supreme Court of the United States
THOMAS S. BELL,

Petitioner,

v.
COMMONWEALTH OF PENNSYLVANIA.
APPENDIX TO APPLICATION FOR EXTENSION OF TIME
TO FILE A PETITION FOR WRIT OF CERTIORARI

To the Honorable Samuel A. Alito, Jr.,
Associate Justice of the United States Supreme Court
and Circuit Justice for the Third Circuit

JEAN GALBRAITH
UNIVERSITY OF PENNSYLVANIA LAW SCHOOL
Appellate Advocacy Clinic
Gittis Center for Clinical Legal Studies
3501 Sansom Street
Philadelphia, PA 19104
(215) 746-7824

ILANA H. EISENSTEIN

Counsel of Record

DLA PIPER LLP (US)
One Liberty Place
1650 Market St., Suite 5000
Philadelphia, PA 19103
(215) 656-3300
Ilana.Eisenstein@dlapiper.com

Counsel for Petitioner

ATTACHMENT A

[J-103-2018]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
SAYLOR, C.J., BAER, TODD, DONOHUE, DOUGHERTY, WECHT, MUNDY, JJ.

COMMONWEALTH OF PENNSYLVANIA,
Appellee

v.

THOMAS S. BELL,
Appellant

:
:
:
:
:
:
:
:
:
:
:
:
:

No. 11 MAP 2018
Appeal from the Order of the Superior
Court at No. 1490 MDA 2016, dated
July 19, 2017, Reconsideration
Denied September 26, 2017,
Reversing the Order of the Court of
Common Pleas of Lycoming County,
Criminal Division, at No. CP-41-CR0001098-2015, dated August 19, 2016
and Remanding for Sentencing.
SUBMITTED: November 30, 2018

OPINION

JUSTICE DOUGHERTY

DECIDED: July 17, 2019

We granted discretionary review to determine whether Section 1547(e) of the
Vehicle Code, 75 Pa.C.S. §1547(e),1 which expressly allows the Commonwealth to
introduce evidence at trial that a defendant charged with Driving Under the Influence
(DUI) refused to submit to chemical testing, violates the Fourth Amendment to the United

Section 1547(e) provides, “[i]n any summary proceeding or criminal proceeding in which
the defendant is charged with a violation of [75 Pa.C.S. §3802 (Driving Under the
Influence)] or any other violation of this title arising out of the same action, the fact that
the defendant refused to submit to chemical testing as required by [75 Pa.C.S. §1547(a)
(deeming drivers to have given consent to chemical testing)] may be introduced in
evidence along with other testimony concerning the circumstances of the refusal. No
presumptions shall arise from this evidence but it may be considered along with other
factors concerning the charge.” 75 Pa.C.S. §1547(e).
1

States Constitution2 or Article I, Section 8 of the Pennsylvania Constitution.3 We conclude
the evidentiary consequence authorized by Section 1547(e) is constitutional.
Accordingly, we affirm the order of the Superior Court.
Following his arrest on suspicion of DUI on May 16, 2015, appellant Thomas Bell
was transported to the Lycoming County DUI Center. N.T. 4/28/16 at 37. At the DUI
Center, Detective Douglas Litwhiler read the PennDOT DL-26 form to appellant and he
refused to submit to a blood test. Id. at 38. Appellant was subsequently charged with
DUI — general impairment, 75 Pa.C.S. §3802(a)(1), and a summary traffic offense for
failing to use required lighting, 75 Pa.C.S. §4302(a)(1).
Appellant filed a pre-trial motion to dismiss arguing he had a constitutional right to
refuse to submit to a warrantless blood test and thus evidence of his refusal should be
suppressed and the DUI charge dismissed. See Appellant’s Motion to Dismiss, 3/8/16 at
5. The trial court denied the motion on April 28, 2016, and appellant proceeded to a
nonjury trial that same day. N.T. 4/28/16 at 6. During trial, Detective Litwhiler testified
regarding appellant’s refusal to submit to blood testing and his assertion he did not want
a needle in his arm because he had previously contracted hepatitis from a hospital needle.
Id. at 38. At the conclusion of trial, appellant was found guilty of all charges.

The Fourth Amendment to the United States Constitution states as follows: “The right
of the people to be secure in their persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be violated, and no Warrants shall issue,
but upon probable cause, supported by Oath or affirmation, and particularly describing
the place to be searched, and the persons or things to be seized.” U.S. CONST. amend.
IV.
2

Article I, Section 8 of the Pennsylvania Constitution states as follows: “The people shall
be secure in their persons, houses, papers and possessions from unreasonable searches
and seizures, and no warrant to search any place or to seize any person or things shall
issue without describing them as nearly as may be, nor without probable cause,
supported by oath or affirmation subscribed to by the affiant.” PA. CONST. art. I, §8.
3

[J-103-2018] - 2

Appellant filed a motion for reconsideration. Appellant specifically argued the
United States Supreme Court’s decision in Birchfield v. North Dakota, __ U.S.__, 136
S.Ct. 2160 (2016),4 precludes states from penalizing DUI defendants for refusing to
submit to warrantless blood testing and, because he was convicted of DUI based on his
refusal, his DUI charge should have been dismissed or, alternatively, he should be
granted a new trial at which evidence of his refusal would be inadmissible.

See

Appellant’s Motion for Reconsideration, 7/1/16 at 2. The trial court ruled the matter was
“clearly controlled [by] Birchfield’s main point: a warrantless blood test violates a
defendant’s right to be free from unreasonable searches and he thus has a constitutional
right to refuse it, which refusal cannot provide the basis for him to be convicted of a crime
or otherwise penalized.” Trial Court Op., 8/19/16 at 5 (emphasis omitted). The trial court
ultimately determined appellant was entitled to a new trial because the court had relied
on his refusal as a basis for the DUI conviction. Id.
The Commonwealth filed an interlocutory appeal to the Superior Court pursuant to
Pa.R.A.P. 311(a)(6) (new trial awarded and Commonwealth claims trial court committed
error of law). The Commonwealth argued Birchfield did not alter the admissibility of
refusal evidence to show consciousness of guilt. The Commonwealth noted the Birchfield
Court explicitly stated it had previously approved of “‘implied-consent laws that impose
civil penalties and evidentiary consequences on motorists who refuse to comply . . . and
nothing we say here should be read to cast doubt on them.’” Commonwealth’s Superior
Court Brief at 11 (emphasis omitted), quoting Birchfield, 136 S.Ct. at 2185.

The

Commonwealth

are

further

contended

scenarios

involving

implied

consent

distinguishable from other situations, such as an individual’s refusal to consent to a

Birchfield was decided on June 23, 2016, after appellant’s April 2016 trial and his March
2016 pre-trial motion to dismiss.
4

[J-103-2018] - 3

warrantless search of his home, where such refusal would be inadmissible at trial. Id. at
13.

Appellant responded that Birchfield created a constitutional right to refuse a

warrantless blood test and the admission of his refusal was improper as it penalized him
for exercising this constitutional right. Appellant’s Superior Court Brief at 4.
A three-judge panel of the Superior Court reversed the trial court’s order granting
appellant a new trial and remanded the case for sentencing. Commonwealth v. Bell, 167
A.3d 744, 750 (Pa. Super. 2017). The panel reviewed Pennsylvania’s implied consent
statute, 75 Pa.C.S. §1547, as well as case law in which both the United States Supreme
Court and the Superior Court stated motorists suspected of drunk driving have no
constitutional right to refuse chemical testing. Bell, 167 A.3d at 748-49, discussing South
Dakota v. Neville, 459 U.S. 553 (1983) and Commonwealth v. Graham, 703 A.2d 510
(Pa. Super. 1997).

Based on this precedent, the panel held appellant had no

constitutional right to refuse a blood test and it was constitutionally permissible for the
Commonwealth to introduce evidence of such refusal at his trial. Id. at 749.
The panel further held the trial court’s reliance on Birchfield for the opposite
conclusion was misplaced, finding the decision did not support the assertion appellant
had a constitutional right to refuse chemical testing and thus did not change the analysis
applied by the courts in Neville and Graham.

Instead, the panel agreed with the

Commonwealth, concluding although the Birchfield Court ultimately held it was
unreasonable for implied consent laws to impose criminal penalties for refusals, the Court
“express[ed] approval of the imposition of civil penalties and evidentiary consequences
on motorists who refuse to comply with chemical testing upon their arrest[.]” Id. at 750,
citing Birchfield, 136 S.Ct. at 2185. Based on the Supreme Court’s approval of evidentiary
consequences set forth in implied consent laws such as Pennsylvania’s statute, the

[J-103-2018] - 4

Superior Court held appellant’s refusal was properly admitted into evidence and thus he
was not entitled to a new trial. Id.
We accepted review to consider the following question raised by appellant:
“Whether §1547(e) of the Vehicle Code, 75 Pa.C.S. §1547(e), is violative of Article 1
Section 8 of the Pennsylvania Constitution and the Fourth Amendment to the United
States Constitution to the extent that it permits evidence of an arrestee's refusal to submit
a sample of blood for testing without a search warrant as proof of consciousness of guilt
at the arrestee’s trial on a charge of DUI?” Commonwealth v. Bell, 183 A.3d 978 (Pa.
2018) (per curiam). As we are presented with a question of law, our scope of review is
plenary and non-deferential. Commonwealth v. Ali, 149 A.3d 29, 34 (Pa. 2016).
Appellant contends Missouri v. McNealy, 569 U.S. 141 (2013), which rejected a
per se exigent circumstances exception to the warrant requirement for blood testing
based on dissipation of blood alcohol content (BAC), and Birchfield, which rejected a
search incident to arrest exception to the warrant requirement for blood testing, make
clear that DUI suspects have a Fourth Amendment right to refuse warrantless blood
testing. Appellant’s Brief at 7-8. Appellant submits the cases relied on by the Superior
Court, Neville and Graham, are inapposite as those decisions were based on a Fifth
Amendment5 analysis and were decided when it was still viewed as constitutionally
permissible to conduct blood testing without first securing a warrant. Id. at 8-9. According
to appellant, since Birchfield declared a Fourth Amendment right to be free from
warrantless blood testing, we must follow the law as stated in Commonwealth v. Welch,
585 A.2d 517 (Pa. Super. 1991), which held a defendant’s refusal of a warrantless search
of her bedroom could not be used as evidence of consciousness of guilt. Appellant’s Brief
5

The Fifth Amendment to the United States Constitution states, in relevant part, as
follows: “No person shall . . . be compelled in any criminal case to be a witness against
himself[.]” U.S. CONST. amend. V.

[J-103-2018] - 5

at 9, citing Welch, 585 A.2d at 520. In further support of this proposition, appellant cites
Commonwealth v. Chapman, 136 A.3d 126 (Pa. 2016), in which this Court held a
defendant’s refusal to submit to a warrantless blood test for DNA purposes was
inadmissible to demonstrate consciousness of guilt.

Appellant’s Brief at 15, citing

Chapman, 136 A.3d at 131.
Appellant further argues the language in Birchfield pertaining to evidentiary
consequences was dicta and does not require a different result here. Id. at 10, citing Trial
Court Op., 8/19/16 at 4. Appellant contends the issue in Birchfield was whether DUI
defendants may be “‘convicted of a crime or otherwise penalized’” for their refusal and it
is clear that allowing the Commonwealth to introduce his refusal into evidence penalized
him by providing a basis for his conviction. Id. (emphasis omitted), quoting Birchfield, 136
S.Ct. at 2172. Additionally, appellant argues our decision in Commonwealth v. Myers,
164 A.3d 1162 (Pa. 2017) (plurality) held the Pennsylvania implied consent statute does
not establish an exception to the warrant requirement and the Commonwealth is required
to prove there was voluntary consent given prior to the extraction of blood. Id. at 11.
Appellant requests we expand the holding in Myers — which involved an unconscious
DUI suspect — to conscious individuals and hold there is a Fourth Amendment right to
refuse warrantless blood testing. Id.
Appellant alternatively requests we hold there is an independent right to refuse a
warrantless blood test under Article I, Section 8 of the Pennsylvania Constitution, and that
Section 1547(e) violates it. Id. at 12-14, citing Commonwealth v. Edmunds, 586 A.2d 887
(Pa. 1991). Appellant contends although the text of Article I, Section 8 is very similar to
that of the Fourth Amendment, this Court has held Article I, Section 8 to be more
protective. Id. at 12, citing, e.g., Commonwealth v. Brion, 652 A.2d 287 (Pa. 1994).
Relative to his claim herein, appellant maintains this Court has continuously held the

[J-103-2018] - 6

search of a person involves greater intrusion upon privacy interests than the search of a
thing. Id. at 13, citing Theodore v. Delaware Valley Sch. Dist., 836 A.2d 76, 89 (Pa. 2003).
Appellant observes no other jurisdiction has addressed the admissibility of refusal
evidence utilizing a state constitutional analysis. Id. Appellant argues this Court should
hold, as a matter of public policy, the severity of the drunk driving problem does not
outweigh individual privacy rights, and police may use breath tests or their own
observations to prove DUI cases without violating those rights. Id. at 13-14.6
In response, the Commonwealth asserts the United States Supreme Court has
consistently

approved

of

implied

consent

laws

like

Pennsylvania’s

statute.

Commonwealth’s Brief at 6-8, citing Schmerber v. California, 384 U.S. 757 (1966)
(holding admission of blood test evidence does not violate Fifth Amendment) and Neville,
supra (holding admission of refusal evidence does not violate Fifth Amendment). The
Commonwealth further asserts Pennsylvania courts have consistently upheld Section
1547. Id. at 8-9, citing Commonwealth v. Stair, 699 A.2d 1250 (Pa. 1997) (Opinion in
Support of Affirmance) (holding no constitutional right to refuse chemical testing) and
Graham, supra (holding admission of refusal evidence does not violate United States
Constitution).

Based on this precedent, the Commonwealth argues there is no

constitutional right to refuse blood testing in the DUI context and the general rule proffered
in Welch regarding a completely separate situation — i.e., evidence of a refusal to consent
to a warrantless search of a bedroom is inadmissible for purposes of demonstrating
consciousness of guilt — does not apply here. Id. at 9. To bolster this argument, the
Commonwealth points to Chapman, where this Court specifically stated “‘the admission
of evidence of a refusal to consent to a warrantless search to demonstrate consciousness
6

The Defender Association of Philadelphia and the Pennsylvania Association of Criminal
Defense Lawyers filed an amicus curiae brief in which they present arguments similar to
those presented by appellant.

[J-103-2018] - 7

of guilt is problematic, as most jurisdictions hold (outside the context of impliedconsent scenarios) that such admission unacceptably burdens an accused’s right to
refuse consent.’” Id. at 9-10 (emphasis in original), quoting Chapman, 136 A.3d at 131.
The Commonwealth contends the implied consent law is the distinguishing factor
between Welch and the case at hand, observing “Welch had not agreed (by undertaking
to engage in a civil privilege such as operating a motor vehicle) to accept an ultimatum
pursuant to which she would either consent to a search or accept non-criminal
consequences of a refusal to so consent.” Id. at 10. The Commonwealth explains “[a]
motorist asked to consent to a blood test is not in the same position as Welch, and is not
being penalized for exercising a constitutional right. Rather . . . the motorist is subjected
to evidentiary consequences for exercising his statutory choice to refuse a chemical test,
the non-criminal consequences of which he has already agreed to[.]” Id. (emphasis in
original). The Commonwealth further asserts our recent decision in Myers supports this
distinction as the lead opinion stated “Pennsylvania’s implied consent statute ‘imposes
an ultimatum upon the arrestee, who must choose either to submit to a requested
chemical test or to face the consequences that follow from the refusal to do so.’” Id. at
11, quoting Myers, 164 A.3d at 1177 (plurality).
The Commonwealth additionally contends the decisions in McNeely and Birchfield
support the continued validity of Section 1547(e). The Commonwealth observes the
McNeely Court, in rejecting a per se exigency rule, recognized “‘[s]tates have a broad
range of legal tools to enforce their drunk-driving laws and to secure BAC evidence,’
including ‘allow[ing] the motorist’s refusal to take a BAC test to be used as evidence
against him[.]’” Id. at 12, quoting McNeely, 569 U.S. at 160-61. And, the Commonwealth
notes the Birchfield Court “confirmed its approval of non-criminal consequences related
to implied consent laws” by stating “‘[o]ur prior opinions have referred approvingly to the

[J-103-2018] - 8

general concept of implied-consent laws that impose civil penalties and evidentiary
consequences on motorists who refuse to comply . . . and nothing we say here should be
read to cast doubt on them.’” Id. at 13-14 (emphasis omitted), quoting Birchfield, 136
S.Ct. at 2185. Accordingly, the Commonwealth asserts the evidentiary consequences for
a refusal to submit to blood testing remain permissible under the Fourth Amendment postBirchfield. Id. at 14.
With regard to appellant’s alternative Article I, Section 8 argument, the
Commonwealth contends it is waived because appellant never raised it in the lower
courts. Id. at 15-19. The Commonwealth also argues appellant’s Article I, Section 8 claim
should be deemed waived because he failed to adequately develop the issue in his brief
to this Court. Id. at 19-21.
The Commonwealth nevertheless presents an Edmunds analysis and asks this
Court to conclude Article I, Section 8 provides no greater protections than the Fourth
Amendment in the context of this case. The Commonwealth agrees the text of Article I,
Section 8 is similar to that of the Fourth Amendment and that this Court has found
independent rights guaranteed by Article I, Section 8 on privacy grounds. Id. at 22-24,
citing Theodore, 836 A.2d at 88. However, the Commonwealth maintains Pennsylvania
courts have had numerous opportunities to consider implied consent in the search and
seizure context and have consistently aligned with the High Court’s decisions. Id. at 2425. In fact, the Commonwealth contends, in no case has a Pennsylvania court suggested
Article I, Section 8 provides greater protections in the implied consent context, and our
courts have instead referred to “‘the Fourth Amendment to the United States Constitution
and Article I, Section 8 of the Pennsylvania Constitution’ together[,]” which suggests they
are coterminous in this context. Id. at 25, quoting Myers, 164 A.3d at 1167.

[J-103-2018] - 9

The Commonwealth recognizes that no state court has ruled upon the admissibility
of refusal evidence in the implied consent context using a state constitutional analysis,
but points to several state court decisions that have applied a post-Birchfield Fourth
Amendment analysis to hold “a defendant’s refusal to submit to a chemical test of blood
in the implied consent context may be constitutionally admitted into evidence at trial.” Id.
at 26. Specifically, the Commonwealth cites to an en banc Colorado Supreme Court
decision concluding Birchfield was distinguishable from cases involving the admissibility
of refusal evidence, id. at 26-27, citing Fitzgerald v. People, 394 P.3d 671, 675-76 (Colo.
2017), and a Vermont Supreme Court decision holding “‘criminalizing the revocation of
implied consent crosses the line in terms of impermissibly burdening the Fourth
Amendment . . . [b]ut allowing evidence of a refusal to submit to a blood test in the context
of a DUI prosecution does not warrant the same constitutional protection.’” Id. at 28,
quoting State v. Rajda, 196 A.3d 1108, 1121 (Vt. 2018).
Regarding public policy, the Commonwealth argues Section 1547(e) does not
infringe upon privacy rights as the subsection applies only when a motorist invokes his
statutory right to refuse a blood test. Id. at 30. Where no blood test takes place, the
Commonwealth maintains, the motorist’s privacy has not been invaded.

Id.

The

Commonwealth further argues the inability to present refusal evidence at trial would
prejudice DUI prosecutions because the jury will expect evidence of BAC or an
explanation for its absence. Id. at 31-32. Lastly, the Commonwealth contends it is vital
for it to possess non-criminal means, such as the admissibility of refusal evidence, to
encourage motorists to comply with requests for chemical testing. Id. at 32-34.7

The Pennsylvania District Attorney’s Association filed an amicus curiae brief in which it
presents arguments similar to those presented by the Commonwealth.
7

[J-103-2018] - 10

Preliminarily, we agree with the Commonwealth that appellant’s current claim
Section 1547(e) violates Article I, Section 8 is waived. Although appellant stated in his
pre-trial motion to dismiss “Pennsylvania’s Implied Consent Law violates Article 1, Section
8 of the Pennsylvania Constitution and the Fourth Amendment to the United States
Constitution[,]” Appellant’s Motion to Dismiss, 3/8/16 at 2, he failed at that time to develop
an argument that the Pennsylvania Constitution provided any independent grounds for
relief. Furthermore, in his post-trial motion for reconsideration, appellant did not reference
Article I, Section 8 at all, but only stated Birchfield provided him with a “constitutional right
to refuse testing of blood[.]” Appellant’s Motion for Reconsideration, 7/1/16 at 2. Although
appellant includes a brief and cursory Edmunds analysis in his brief to this Court, it is the
first time he has suggested that Article I, Section 8 provides an independent basis for
relief. See Appellant’s Brief at 12-14. As appellant failed to preserve his Article I, Section
8 claim we decline to consider it. See Commonwealth v. Chamberlain, 30 A.3d 381, 405
(Pa. 2011) (declining to consider whether state constitution departed from federal
counterpart where argument was not directly advanced in lower courts); Pa.R.A.P. 302(a)
(“Issues not raised in the lower court are waived and cannot be raised for the first time on
appeal”). We therefore limit our review to appellant’s argument Section 1547(e) violates
his rights under the Fourth Amendment.8
Neither appellant’s failure to develop an Edmunds analysis in the trial court nor his failure
to reference Article I, Section 8 in his motion for reconsideration is the basis upon which
we find waiver. Instead, we find waiver on the same basis as did the Court in Chamberlain
— appellant “did not claim before the trial court that the Pennsylvania Constitution
provided an independent basis for relief.” Chamberlain, 30 A.3d at 405; see also id. at
406 (“We decline to consider whether state due process should depart from federal due
process with regard to missing evidence where this argument was not directly
advanced in the court below.”) (emphasis added). Although we recognize appellant
stated in his motion to dismiss that “Pennsylvania’s Implied Consent Law violates Article
1, Section 8 of the Pennsylvania Constitution and the Fourth Amendment to the United
States Constitution[,]” see Appellant’s Motion to Dismiss, 3/8/16 at 2, appellant failed to
directly advance any argument regarding whether the clauses differed. We find the
8

[J-103-2018] - 11

The Fourth Amendment to the United States Constitution provides, in relevant part,
“[t]he right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated[.]”

U.S. CONST.

amend. IV. It has long been established that a blood draw for purposes of determining
BAC constitutes a search under the Fourth Amendment. Schmerber, 384 U.S. at 767.
As such, the pertinent question under a Fourth Amendment analysis is whether such a
search is reasonable. Birchfield, 136 S.Ct. at 2173. Generally, in order for a search to
be reasonable, the Fourth Amendment requires that police obtain a warrant, supported
by probable cause and issued by a neutral magistrate, prior to searching an individual or
his property. Commonwealth v. Arter, 151 A.3d 149, 153 (Pa. 2016). Although searches
conducted without a warrant are presumed to be unreasonable, there are exceptions to
this rule, including searches conducted with the consent of the individual whose person
or property is being searched. Commonwealth v. Wilmer, 194 A.3d 564, 567-68 (Pa.
2018).
In order to combat the dangers of drunk driving, states, including Pennsylvania,
have enacted laws which criminalize driving with a BAC that exceeds a certain level.
Birchfield, 136 S.Ct. at 2166. Blood testing is necessary to determine a motorist’s BAC
but those suspected of DUI routinely decline to submit to testing when given the option.
Id. Accordingly, states have also enacted implied consent laws, which impose penalties
on motorists who refuse to undergo BAC testing. Id. These laws are based on the notion
current situation to be akin to cases where this Court has repeatedly stated general claims
under the state and federal constitutions do not present independent questions of state
constitutional law. See e.g., Commonwealth v. Lagenella, 83 A.3d 94, 99 n.3 (Pa. 2013);
Commonwealth v. Galvin, 985 A.2d 783, 793 n.15 (Pa. 2009); Commonwealth v. Starr,
664 A.2d 1326, 1334 n.6 (Pa. 1995). Lastly, the fact that the question granted for review
in this case included appellant’s claim under Article I, Section 8, see Commonwealth v.
Bell, 183 A.3d 978 (Pa. 2018) (per curiam), does not preclude us from ultimately finding
the claim waived. See Commonwealth v. Metz, 633 A.2d 125, 126 (Pa. 1993) (declining
to address an issue upon which allocatur was granted due to waiver).

[J-103-2018] - 12

that driving is a privilege rather than a fundamental right. PennDOT v. Scott, 684 A.2d
539, 544 (Pa. 1996). When partaking in the privilege of driving on Pennsylvania’s roads,
motorists must comply with Pennsylvania’s implied consent statute, 75 Pa.C.S. §1547.
The version of the implied consent statute in effect at the time of appellant’s arrest
provided, in relevant part, as follows:
Any person who drives, operates or is in actual physical control of the
movement of a vehicle in this Commonwealth shall be deemed to have
given consent to one or more chemical tests of breath, blood or urine for the
purpose of determining the alcoholic content of blood or the presence of a
controlled substance if a police officer has reasonable grounds to believe
the person to have been driving, operating or in actual physical control of
the movement of a vehicle:
(1) in violation of . . . [75 Pa.C.S. §] 3802 (relating to driving
under influence of alcohol or controlled substance)[.]
Former 75 Pa.C.S. §1547(a)(1).9
Section 1547 also sets forth penalties for motorists who were arrested on suspicion
of DUI and refused to submit to chemical testing. These penalties include requiring
PennDOT to suspend the motorist’s license for at least one year, see 75 Pa.C.S.
§1547(b)(1),10 and the penalty at issue here: expressly allowing evidence of the motorist’s
9

We refer in this opinion to the version of Section 1547(a) in effect at the time of
appellant’s arrest as former 75 Pa.C.S. §1547(a). The full citation for this version is as
follows: Act of June 17, 1976, P.L. 162, No. 81, §1, amended December 15, 1982, P.L.
1268, No. 289, §5, amended February 12, 1984, P.L. 53, No. 12, §2, amended May 30,
1990, P.L. 173, No. 42, §5, amended December 18, 1992, P.L. 1411, No. 174, §6,
amended July 2, 1996, P.L. 535, No. 93, §1, amended July 11, 1996, P.L. 660, No. 115,
§8, amended December 21, 1998, P.L. 1126, No. 151, §18, amended October 4, 2002,
P.L. 845, No. 123, §3, amended September 30, 2003, P.L. 120, No. 24, §9.1, 10,
amended November 29, 2004, P.L. 1369, No. 177, §2, amended May 11, 2006, P.L. 164,
No. 40, §2, former 75 Pa.C.S. §1547(a). Subsection (a) was amended in the wake of the
Birchfield decision. However, subsections (b) and (e) remained unchanged following the
amendments.
10

Section 1547(b) also requires police officers to inform motorists that their refusal would
subject them to enhanced criminal penalties if convicted of DUI. See 75 Pa.C.S.
§1547(b)(2)(ii). Such penalties were held to be unconstitutional in Birchfield. In this case,
appellant challenges the constitutionality of Section 1547(e) only and, in any event, the

[J-103-2018] - 13

refusal to be admitted at his subsequent criminal trial on DUI charges. See 75 Pa.C.S.
§1547(e). Section 1547(e) provides as follows:
In any summary proceeding or criminal proceeding in which the defendant
is charged with a violation of [75 Pa.C.S. §]3802 or any other violation of
this title arising out of the same action, the fact that the defendant refused
to submit to chemical testing as required by subsection (a) may be
introduced in evidence along with other testimony concerning the
circumstances of the refusal. No presumptions shall arise from this
evidence but it may be considered along with other factors concerning the
charge.
75 Pa.C.S. §1547(e).
With this statutory framework in mind, we now review the relevant jurisprudence
surrounding warrantless blood testing in the context of DUI arrests. In Schmerber, the
United States Supreme Court considered whether use of the results of a DUI defendant’s
warrantless blood test as evidence at his trial violated, inter alia, the Fourth and Fifth
Amendments. 384 U.S. at 759. The High Court reasoned the results of the blood test
were not testimonial in nature and thus did not constitute compelled self-incrimination in
violation of the Fifth Amendment. Id. at 760-65. The Court also denied the defendant’s
Fourth Amendment claim, concluding it was reasonable for the officer to conduct a
warrantless blood test based on exigent circumstances, namely that the defendant was
rushed to the hospital, the officer had to investigate the scene of the accident before
arriving at the hospital to make the blood draw, and the amount of alcohol in the
defendant’s blood would have begun to dissipate had the officer first sought a warrant.
Id. at 766-72.
The Court later decided Neville, which presented the question of whether the trial
court’s admission of a DUI defendant’s refusal to submit to a warrantless blood test

Commonwealth has previously conceded that appellant cannot be subject to enhanced
criminal penalties based on his refusal when this case proceeds to sentencing. See Trial
Court Op., 8/19/16 at 2.

[J-103-2018] - 14

violated his rights under the Fifth Amendment. 459 U.S. at 554. The defendant’s refusal
was admitted into evidence by way of a South Dakota implied consent statute which
permitted motorists to refuse the test, but penalized such refusal by revoking their driving
licenses for one year and allowing evidence of their refusal to be used against them at
trial. Id. at 559-60. The Neville Court ultimately held the admission of refusal evidence
did not violate the Fifth Amendment because the defendant had not been coerced into
refusing the test, but instead was given a choice between submitting to the test or
accepting the consequences of refusing the test. Id. at 562-63. In doing so, the Court
recognized the state would prefer the defendant choose to submit to the test as actual
BAC evidence which exceeds lawful limits is far stronger evidence of guilt than refusal
evidence. Id. at 564. As the refusal was not coerced, the Court held its admission into
evidence was not barred by the Fifth Amendment right against self-incrimination. Id. The
Court additionally held the officer’s failure to warn the defendant that his refusal could be
used against him at trial did not violate his due process rights. Id. at 564-66.
The legal landscape regarding warrantless blood tests changed with McNeely, in
which a DUI defendant challenged the admission of his BAC results where he had refused
to submit to a breath test and was then transported to a hospital where a warrantless
blood draw was performed without his consent. 569 U.S. at 145-47. The Court held
suppression of the blood test results was proper because the warrantless blood test
violated the defendant’s Fourth Amendment rights. Id. at 164-65. The Court rejected
Missouri’s argument there should be a per se rule allowing warrantless blood tests in all
DUI cases, based on the alleged automatic exigency arising from the natural dissipation
of alcohol in the bloodstream. Id. at 151-56. Instead, the Court continued to follow
Schmerber and held whether a warrantless blood test is reasonable based on exigent
circumstances must be determined by viewing the totality of the circumstances of each

[J-103-2018] - 15

particular case. Id. at 156. In support of this conclusion, a plurality of the Court noted
states have other tools to enforce drunk driving laws and to secure BAC evidence, that
presumably do not implicate Fourth Amendment concerns. Id. at 160-61 (plurality).
Included in these tools, the plurality expressly recognized, are “implied consent laws that
require motorists, as a condition of operating a motor vehicle within the State, to consent
to BAC testing if they are arrested . . . on suspicion of a drunk-driving offense” and “[s]uch
laws impose significant consequences when a motorist withdraws consent[,]” including
“allow[ing] the motorist’s refusal to take a BAC test to be used as evidence against him in
a subsequent criminal prosecution.” Id. at 161 (plurality).
The Court then decided Birchfield. In the introduction to its opinion, the Court noted
the penalties for refusing chemical testing in early implied consent laws were suspension
or revocation of a motorist’s license and allowing evidence of a motorist’s refusal to be
admitted in a subsequent trial. 136 S.Ct. at 2169. The Court also observed that, more
recently, in an effort to further strengthen drunk driving laws, states began imposing
criminal penalties on motorists who refuse to submit to chemical testing. Id. Birchfield
squarely presented the question of whether compelling motorists to submit to warrantless
breath or blood tests on pain of criminal consequences violates the Fourth Amendment.
Id. at 2172.
In deciding this question, the High Court first considered whether the search of a
DUI suspect’s blood or breath was exempted from the warrant requirement as a search
incident to arrest. Id. at 2174-84. After an assessment of “the effect of BAC tests on
privacy interests and the need for such tests,” the Court concluded “the Fourth
Amendment permits warrantless breath tests incident to arrests for drunk driving”
because “[t]he impact of breath tests on privacy is slight, and the need for BAC testing is
great.” Id. at 2184. However, the Court reached “a different conclusion with respect to

[J-103-2018] - 16

blood tests[,]” concluding “[b]lood tests are significantly more intrusive,” “their
reasonableness must be judged in light of the availability of the less invasive alternative
of a breath test[,]” and there is no “justification for demanding the more intrusive
alternative without a warrant.” Id.
The Court next considered whether the implied consent statute at issue satisfied
the consent exception to the warrant requirement. Id. at 2185-87. The Court recognized
its “prior opinions have referred approvingly to the general concept of implied-consent
laws that impose civil penalties and evidentiary consequences on motorists who refuse
to comply . . . and nothing we say here should be read to cast doubt on them.” Id. at
2185, citing McNeely, 569 U.S. at 160-62; Neville, 459 U.S. at 560. However, the High
Court held “[t]here must be a limit to the consequences to which motorists may be deemed
to have consented by virtue of a decision to drive on public roads” and “motorists cannot
be deemed to have consented to submit to a blood test on pain of committing a criminal
offense.” Id. at 2185-86.
Following Birchfield, this Court decided Myers. In Myers, police officers arrested
a motorist for DUI and transported him to the hospital as they believed he was so severely
intoxicated he required medical attention. 164 A.3d at 1165. Notwithstanding the fact
that medical treatment at the hospital rendered the DUI suspect unconscious, a police
officer read out the PennDOT DL-26 form in his presence and instructed hospital
personnel to draw blood from him for purposes of securing BAC evidence. Id. This Court
affirmed suppression of the blood test results, holding a blood draw from an unconscious
DUI suspect violates the dictates of Pennsylvania’s implied consent law as Section
1547(b)(1) provides an absolute right to refuse chemical testing, and an unconscious
individual is unable to exercise that right. Id. at 1172. A majority of the Court also held,
albeit without complete agreement as to reasoning, that a warrantless blood draw from

[J-103-2018] - 17

an unconscious DUI suspect violates the Fourth Amendment. Id. at 1173-82 (plurality);
1183-84 (Saylor, C.J., concurring).
The United States Supreme Court’s decisions in McNeely and Birchfield and this
Court’s decision in Myers indicate a warrantless blood test, which is conducted when no
exceptions to the warrant requirement apply, violates the Fourth Amendment rights of a
motorist suspected of DUI. Outside the implied consent context, such a violation would
trigger the application of Welch and a refusal to submit to the warrantless blood test would
be inadmissible at any subsequent trial on the DUI charges. See Welch, 585 A.2d at 520
(defendant’s refusal of a warrantless search of her bedroom could not be used as
evidence of consciousness of guilt). However, we agree with the Commonwealth that the
Pennsylvania implied consent statute is the distinguishing factor between Welch and the
case at hand. See Chapman, 136 A.3d at 131 (“the admission of evidence of a refusal
to consent to a warrantless search to demonstrate consciousness of guilt is problematic,
as most jurisdictions hold (outside the context of implied-consent scenarios) that such
admission unacceptably burdens an accused’s right to refuse consent”) (emphasis
added). As the Commonwealth aptly states, unlike the defendant in Welch, appellant
“agreed (by undertaking to engage in a civil privilege such as operating a motor vehicle)
to accept an ultimatum pursuant to which [he] would either consent to a search or accept
non-criminal consequences of a refusal to so consent.” Commonwealth’s Brief at 10.
Indeed, as the Myers plurality recognized, implied consent laws “authorize a police
officer to request a motorist’s submission to a chemical test, at which point the motorist
must choose either (a) to comply with the test or (b) to refuse and accept the
consequences that accompany refusal.” 164 A.3d at 1174 (plurality). The choice may
well be a difficult one, but this alone does not invalidate the “implied consent” created by
the statute. See Jenkins v. Anderson, 447 U.S. 231, 236 (1980) (“the Constitution does

[J-103-2018] - 18

not forbid ‘every government-imposed choice in the criminal process that has the effect
of discouraging the exercise of constitutional rights’”), quoting Chaffin v. Stynchcombe,
412 U.S. 17, 30 (1973). As implied by Birchfield, the pertinent question in determining
the constitutionality of a statute demanding this particular choice is whether the
consequence for refusing a warrantless blood test undermines the inference that the
motorist implicitly consented to it, and suggests instead that the “search” was coerced.11,12
11

This question fully encompasses the threshold issue in Jenkins and Chaffin and our
analysis below answers it. Jenkins, 447 U.S. at 236 (“The ‘threshold question is whether
compelling the election impairs to an appreciable extent any of the policies behind the
rights involved.’”), quoting Chaffin, 412 U.S. at 32. As seen infra, we disagree with the
dissent’s assertion that “[t]he sole purpose of the implied consent law’s consequences of
refusal is to induce a motorist’s compliance with chemical testing.” Dissenting Opinion,
slip op. at 21 n.6. See also id. at 29 (“the ‘only objective’ of this practice is to ‘discourage
the assertion’ of that constitutional right”), quoting Chaffin, 412 U.S. at 32 n.20. Indeed,
the consequence at issue here — allowing evidence of a motorist’s refusal at his
subsequent trial for DUI — does not solely punish a defendant but also has a legitimate
purpose, just as the consequence at issue in Jenkins. See Jenkins, 447 U.S. at 238
(impeachment evidence has the legitimate purpose of “advanc[ing] the truth-finding
function of the criminal trial”). As stated below, the admission of refusal evidence “furthers
the reliability of the criminal process and its truth-seeking function by allowing the jurors
to understand why the State is not submitting an evidentiary test in a DUI prosecution.”
Rajda, 196 A.3d at 1120. Surely, it cannot be said that the sole purpose of the admission
of refusal evidence “is to induce a motorist’s compliance with chemical testing.”
Dissenting Opinion, slip op. at 21 n.6.
The dissent criticizes our decision not to address the High Court’s jurisprudence
regarding the unconstitutional conditions doctrine and the penalization of the exercise of
constitutional rights. See Dissenting Opinion, slip op. at 14-15 n.4, 19 & n.5, 20. Although
appellant may have raised the unconstitutional conditions doctrine in his motion to dismiss
before the trial court, see Appellant’s Motion to Dismiss, 3/8/16 at 2 (“Pennsylvania’s
Implied Consent Law violates Article 1, Section 8 of the Pennsylvania Constitution and
the Fourth Amendment to the United States Constitution under the Unconstitutional
Conditions Doctrine”), we decline to address the doctrine here because appellant himself,
in his brief to this Court, does not discuss the doctrine or its potential application to his
case, nor does he cite to any of the High Court’s cases discussing the penalization of
constitutional rights, but instead cites solely to the distinguishable cases of Chapman and
Welch. Furthermore, we take considerable issue with Justice Wecht’s spurious assertion
that we prefer “to set a dangerous and unfounded precedent suggesting that the universe
12

[J-103-2018] - 19

Our view on this point is substantially aligned with that of the Supreme Court of
Vermont. When deciding an issue identical to the one at hand, the court opined:
As the [Birchfield] Court suggested . . . the admission of evidence of a
refusal to submit to a blood draw is a qualitatively different consequence
with respect to its burden on the Fourth Amendment. Criminalizing refusal
places far more pressure on defendants to submit to the blood test —
thereby impermissibly burdening the constitutionally protected right not to
submit to the test — than merely allowing evidence of the refusal at a
criminal DUI trial, where a defendant can explain the basis for the refusal
and the jury can consider the defendant’s explanation for doing so.
Moreover, the admission of refusal evidence in the context of a DUI
proceeding, without directly burdening the privacy interest protected by the
Fourth Amendment, furthers the reliability of the criminal process and its
truth-seeking function by allowing the jurors to understand why the State is
not submitting an evidentiary test in a DUI prosecution.

of applicable law is limited to the Table of Citations section of an appellant’s brief.” See
Dissenting Opinion, slip op. at 20. Of course we are not limiting our review. Instead, we
apply the longstanding principle that courts should not act as advocates at the risk of
depriving the parties the opportunity to be heard. Yount v. DOC, 966 A.2d 1115, 1119
(Pa. 2009), citing Luitweiler v. Northchester Corp., 319 A.2d 899, 901 n.5 (Pa. 1974).
Indeed, the Commonwealth here had no opportunity to present advocacy to this Court as
to whether the unconstitutional conditions doctrine is implicated because the words
“unconstitutional conditions doctrine” do not even appear in appellant’s brief.
In any event, we find the unconstitutional conditions doctrine is inapplicable here as the
implied consent law does not condition the privilege of driving upon a motorist’s
submission to future warrantless blood testing. Indeed, as stated previously, Section
1547(b)(2) provides an absolute right to refuse all chemical testing. See Myers, 164 A.3d
at 1172. The fact that certain consequences arise from a motorist’s refusal to submit to
chemical testing, including the evidentiary consequence presently at issue, does not
render the implied consent statute unconstitutional. The lead opinion in Myers, authored
by Justice Wecht, who takes a dissenting position here, recognized as much by stating:
“[t]he statute does not authorize police officers to seize bodily fluids without an arrestee’s
permission. Instead, it imposes an ultimatum upon the arrestee, who must choose either
to submit to a requested chemical test or to face the consequences that follow from the
refusal to do so.” Id. at 1177; see also Jenkins, 447 U.S. at 236 (“the Constitution does
not forbid ‘every government-imposed choice in the criminal process that has the effect
of discouraging the exercise of constitutional rights’”), quoting Chaffin, 412 U.S. at 30.

[J-103-2018] - 20

The implied consent statute establishes a bargain in which, in exchange for
the privilege of engaging in the potentially dangerous activity of operating a
motor vehicle on the highway, motorists impliedly consent to testing for
impaired driving to protect the public. The critical question is whether civil
or criminal sanctions resulting from motorists’ revocation of their implied
consent unconstitutionally coerce them to submit to testing. In Birchfield,
the U.S. Supreme Court has ruled, with respect to the more invasive blood
test, that only criminalizing the revocation of implied consent crosses the
line in terms of impermissibly burdening the Fourth Amendment.
But allowing evidence of a refusal to submit to a blood test in the context of
a DUI prosecution does not warrant the same constitutional protection. The
speculative conclusion that a citizen will consent to a search that he or she
would otherwise resist solely to avoid evidentiary implications at a possible
future trial seems too attenuated to meet the U.S. Supreme Court’s test in
practice. Indeed, as the Court in Birchfield pointed out, states began
criminalizing refusals because the other civil and evidentiary consequences
provided an insufficient incentive for motorists — most particularly repeat
DUI offenders — to submit to testing.
Rajda, 196 A.3d at 1120-21 (internal footnotes, quotations, brackets, and citations
omitted).

Like the Vermont Supreme Court, and following Birchfield, we focus our

analysis on the nature of the consequences permitted by Pennsylvania’s implied consent
statute.
Undeniably, the Birchfield Court rejected criminal prosecution as a valid
consequence for refusing a warrantless blood test by stating “motorists cannot be
deemed to have consented to submit to a blood test on pain of committing a criminal
offense.” 136 S.Ct. at 2186. At the same time, the Court did not back away from its prior
approval of other kinds of consequences for refusal, such as “evidentiary consequences.”
Id. at 2185 (“Our prior opinions have referred approvingly to the general concept of
implied-consent laws that impose civil penalties and evidentiary consequences on
motorists who refuse to comply. Petitioners do not question the constitutionality of those
laws, and nothing we say here should be read to cast doubt on them.”) (internal citations
omitted).13 Moreover, the Birchfield Court cited to the McNeely plurality which provided
13

The Supreme Court of the United States recently decided the Birchfield-related case of
Mitchell v. Wisconsin, ___ U.S. ___, 139 S.Ct. 2525 (2019) (plurality), in which the

[J-103-2018] - 21

a general endorsement of the evidentiary consequence at issue in this case — evidence
of a refusal being admitted at a DUI suspect’s trial. Id. at 2185, citing McNeely, 569 U.S.
at 161 (implied consent laws “impose significant consequences when a motorist
withdraws consent; typically the motorist’s driver’s license is immediately suspended or
revoked, and most [s]tates allow the motorist’s refusal to take a BAC test to be used as
evidence against him in a subsequent criminal prosecution”). Finally, the Birchfield Court
also cited Neville, which approved of admitting refusal evidence in a DUI trial, albeit in the
context of a Fifth Amendment challenge. Id., citing Neville, 459 U.S. at 560. Based on
the above, we find ample support to conclude the High Court would approve this particular
evidentiary consequence in the context of a Fourth Amendment challenge. 14
plurality determined a warrantless blood test is generally valid under the 4th Amendment
based on exigent circumstances where a motorist suspected of DUI is unconscious.
Although Mitchell is not directly relevant here, the opinion signals general approval of
implied consent laws and evidentiary consequences for failing to comply with such laws.
See Mitchell, 139 S.Ct. at 2532 (“‘Our prior opinions referred approvingly to the general
concept of implied-consent laws that impose civil penalties and evidentiary consequences
on motorists who refuse to comply.’”), quoting Birchfield, 136 S.Ct. at 2185.
14

Our learned colleague in dissent is deliberate in his attempt to dispute this conclusion.
In doing so, Justice Wecht relies on dicta from Birchfield which he finds useful, see
Dissenting Opinion, slip op. at 10-11 (quoting dicta from Birchfield regarding the seeking
of warrants), while simultaneously criticizing our reliance on the High Court’s expressed
intention not to cast doubt on implied consent laws that impose civil penalties and
evidentiary consequences. Compare id. at 23 (“As I read Birchfield’s caveat, the Court
merely declined to opine concerning matters outside the scope of the issue upon which
certiorari was granted”) with Birchfield, 136 S.Ct. at 2185 (“Our prior opinions have
referred approvingly to the general concept of implied-consent laws that impose civil
penalties and evidentiary consequences on motorists who refuse to comply . . . and
nothing we say here should be read to cast doubt on them.”). The dissent also
manufactures an illusory circularity problem where one does not exist in order to reach a
conclusion — invalidating all implied consent laws with respect to blood testing — that no
other court has reached. Cf. Rajda, 196 A.3d at 1121 (“[t]he case law interpreting implied
consent laws demonstrates that the judiciary overwhelmingly sanctions the use of civil
penalties and evidentiary consequences against DUI suspects who refuse to comply”)

[J-103-2018] - 22

Accordingly, we conclude the “evidentiary consequence” provided by Section
1547(e) for refusing to submit to a warrantless blood test — the admission of that refusal
at a subsequent trial for DUI — remains constitutionally permissible post-Birchfield. We
therefore affirm the order of the Superior Court.
Jurisdiction relinquished.
Chief Justice Saylor and Justices Baer, Todd and Mundy join the opinion.
Justice Mundy files a concurring opinion in which Justice Todd joins.
Justice Wecht files a dissenting opinion in which Justice Donohue joins.

(citation omitted); Fitzgerald, 394 P.3d at 676 (“the Supreme Court has all but said that
anything short of criminalizing refusal does not impermissibly burden or penalize a
defendant’s Fourth Amendment right to be free from an unreasonable warrantless
search”). Rather than engaging in a discussion of the dissent’s perceived “paradox,” we
need only answer one question: is the evidentiary consequence at issue so coercive that
it renders a motorist’s prospective consent to blood testing involuntary? As detailed
above, the answer to that question is no.

[J-103-2018] - 23

ATTACHMENT B

[J-103-2018] [MO: Dougherty, J.]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

COMMONWEALTH OF PENNSYLVANIA,
Appellee

v.

THOMAS S. BELL,
Appellant

:
:
:
:
:
:
:
:
:
:
:
:
:

No. 11 MAP 2018
Appeal from the Order of the Superior
Court at No. 1490 MDA 2016, dated
July 19, 2017, Reconsideration
Denied September 26, 2017,
Reversing the Order of the Court of
Common Pleas of Lycoming County,
Criminal Division, at No. CP-41-CR0001098-2015, dated August 19, 2016
and Remanding for Sentencing.
SUBMITTED: November 30, 2018

DISSENTING OPINION

JUSTICE WECHT

DECIDED: July 17, 2019

In Missouri v. McNeely, 569 U.S. 141 (2013), and Birchfield v. North Dakota, __
U.S. __, 136 S.Ct. 2160 (2016), the Supreme Court of the United States altered the Fourth
Amendment paradigm in DUI investigations. The conclusions that the Court reached,
particularly in Birchfield, have a substantial ripple effect upon numerous other questions
of constitutional dimension.
Although Birchfield answers quite clearly the question upon which the Court
granted certiorari, the Court’s discussion regarding the concept of “implied consent” is
puzzling. The Birchfield Court’s opacity on this point prompted substantial disagreement
among the members of this Court in Commonwealth v. Myers, 164 A.3d 1162 (Pa. 2017),
and we at that time were unable to reach a consensus regarding the impact of the
Birchfield decision upon Pennsylvania law. This Court has resolved certain unanswered
questions relating to matters such as the legality of a criminal sentence that implicates

Birchfield. See Commonwealth v. Monarch, 200 A.3d 51 (Pa. 2019). However, since
Myers, this Court has not had an opportunity to address several other legal questions that
remain unresolved in Birchfield’s wake. These questions relate to the voluntariness of
consent, driver’s license suspension, and admissibility of evidence. In this case, we
address the “evidentiary consequence,” Birchfield, 136 S.Ct. at 2185, set forth in 75
Pa.C.S. § 1547(e), which allows the Commonwealth to introduce evidence at trial of a
motorist’s refusal to consent to a warrantless blood draw, thus suggesting consciousness
of guilt.
It is evident to me that all of these unanswered questions, including the question
at bar, have the same answer. The answer is that a blood test, unlike a breath test, is an
intrusive manner of Fourth Amendment search, for which there is no readily available
exception to the Fourth Amendment’s warrant requirement. As such, under established
constitutional doctrine, an individual has a right to refuse such a warrantless search, and
the exercise of that right may not be penalized, coerced, burdened, manipulated, or
involuntarily bargained away by the State. The Fourth Amendment need not be strained
to reach a contrary conclusion, because the evidence that is sought remains available,
and the legislative measures designed to secure that evidence all remain permissible.
Police officers merely must obtain search warrants for blood tests, or resort to the exigent
circumstances exception when they cannot. Because, in this case, the failure to obtain a
search warrant rendered the blood test unconstitutional, Thomas Bell had a constitutional
right to refuse to consent to that search, and the use of his refusal as evidence of his guilt
placed an impermissible burden upon the exercise of Bell’s Fourth Amendment rights.
My reasoning follows.

[J-103-2018] [MO: Dougherty, J.] - 2

I.

Constitutional Right to Refuse Consent to an Invalid Search

The instant case implicates constitutional issues that were not before the Court in
McNeely or Birchfield. These decisions nonetheless impact the question presented here,
so we must survey the legal landscape as it now stands in light of the Court’s analyses in
these cases. When a motorist is suspected of DUI, testing of the motorist’s blood alcohol
concentration (“BAC”) is the primary means by which police officers obtain evidence of
the motorist’s crime. Such testing typically requires a sample of the motorist’s breath or
blood. Breath tests and blood tests both indisputably constitute searches under the
Fourth Amendment. See Birchfield, 136 S.Ct. at 2173 (citing Skinner v. Ry. Labor Execs.’
Ass’n., 489 U.S. 602, 616-17 (1989); Schmerber v. California, 384 U.S. 757, 767-68
(1966)).
Even in the absence of a search warrant, such tests once were viewed as
constitutional pursuant to Schmerber, wherein the Court held that a warrantless blood
test was permissible because, in light of the constant dissipation of alcohol from the
bloodstream, the officer who arrested a motorist suspected of DUI “might reasonably have
believed that he was confronted with an emergency, in which the delay necessary to
obtain a warrant, under the circumstances, threatened the destruction of evidence.”
Schmerber, 384 U.S. at 770 (citation and quotation marks omitted).

Generalized

acceptance of this theory was particularly understandable following the Court’s dictum in
South Dakota v. Neville, 459 U.S. 553 (1983), wherein the Court—addressing whether
evidence of a motorist’s refusal to comply is “testimonial” for purposes of the Fifth
Amendment right against self-incrimination—stated broadly that “Schmerber . . . clearly
allows a State to force a person suspected of driving while intoxicated to submit to a blood
alcohol test.” Neville, 459 U.S. at 559.

[J-103-2018] [MO: Dougherty, J.] - 3

However, in McNeely, the Court clarified Schmerber, holding that “the natural
dissipation of alcohol in the bloodstream does not constitute an exigency in every case
sufficient to justify conducting a blood test without a warrant.” McNeely, 569 U.S. at 165.
Crucial to the McNeely Court’s reasoning were the “advances in the 47 years since
Schmerber was decided that allow for the more expeditious processing of warrant
applications” such as the remote communication with a magistrate by telephone, radio,
e-mail, and video-conference, as well as “other ways to streamline the warrant process,
such as by using standard-form warrant applications for drunk-driving investigations.”
McNeely, 569 U.S. at 154-55. In other words, when Schmerber was decided, time
constraints created a greater need for an exception from the warrant requirement than
exists today, with the advent of technology that makes the acquisition of a search warrant
easier and more expeditious than ever before.
Following McNeely, although the dissipation of BAC evidence “may support a
finding of exigency in a specific case, as it did in Schmerber, it does not do so
categorically.” Id. at 156.1 Rather, “[w]hether a warrantless blood test of a drunk-driving
suspect is reasonable must be determined case by case based on the totality of the
circumstances.” Id. A question arose: whether warrantless BAC testing may be justified
categorically upon the basis of a different exception to the warrant requirement, such as
consent or the search-incident-to-arrest doctrine? Enter Birchfield.
1

As discussed further below, infra n.9, a plurality of the Supreme Court of the United
States now has concluded that, in the particular circumstance in which a motorist
suspected of DUI is unconscious, the exigent circumstances exception to the warrant
requirement generally will apply. Mitchell v. Wisconsin, __ U.S. __, 139 S.Ct. 2525 (2019)
(plurality). This ruling, however, does not alter McNeely’s application to conscious
motorists, nor does it provide any clarity with regard to the question presently at bar.
Further, because we do not here consider a blood draw conducted upon an unconscious
motorist, Mitchell does not inform the analysis with regard to the threshold question of
whether the search compelled in this case was permissible under the Fourth Amendment
or Article I, Section 8 of the Pennsylvania Constitution.

[J-103-2018] [MO: Dougherty, J.] - 4

The Birchfield decision began with a discussion of the history, purpose, and
operation of “implied consent” laws, which are designed to encourage a motorist’s
cooperation with BAC testing. “Because the cooperation of the test subject is necessary
when a breath test is administered and highly preferable when a blood sample is taken,
the enactment of laws defining intoxication based on BAC made it necessary for States
to find a way of securing such cooperation. So-called ‘implied consent’ laws were enacted
to achieve this result.” Birchfield, 136 S.Ct. at 2168-69.
Although the typical consequences of refusal include suspension or revocation of
a motorist’s driver’s license and the admission of evidence of the motorist’s refusal in a
subsequent prosecution, the Court observed that “some States have begun to enact laws
making it a crime to refuse to undergo testing.” Id. at 2169. Importantly, it was the
question of the constitutionality of criminal punishment for refusal to submit to a
warrantless BAC test—and not the other consequences imposed under implied consent
schemes—upon which the Court granted certiorari.

See id. at 2172 (“We granted

certiorari . . . in order to decide whether motorists lawfully arrested for drunk driving may
be convicted of a crime or otherwise penalized for refusing to take a warrantless test
measuring the alcohol in their bloodstream.”).
After observing the differences between the facts of the three petitioners’ cases—
Birchfield refused a blood test and was convicted of a crime; Bernard refused a breath
test and was convicted of a crime; and Beylund submitted to a blood test and his driver’s
license was suspended based upon his BAC—the Court articulated the framework for
resolving the constitutional question at issue. The Court premised its ratio decidendi upon
the following inquiry:
Despite these differences, success for all three petitioners depends on the
proposition that the criminal law ordinarily may not compel a motorist to
submit to the taking of a blood sample or to a breath test unless a warrant
authorizing such testing is issued by a magistrate. If, on the other hand,
[J-103-2018] [MO: Dougherty, J.] - 5

such warrantless searches comport with the Fourth Amendment, it follows
that a State may criminalize the refusal to comply with a demand to submit
to the required testing, just as a State may make it a crime for a person to
obstruct the execution of a valid search warrant.
Id.

“And by the same token,” the Court added, “if such warrantless searches are

constitutional, there is no obstacle under federal law to the admission of the results that
they yield in either a criminal prosecution or a civil or administrative proceeding.” Id. at
2173.
Under Birchfield, the validity of the search is dispositive of the lawfulness of the
penalty. Accordingly, the Court began its analysis “by considering whether the searches
demanded in these cases were consistent with the Fourth Amendment.” Id. The Court
spent the vast majority of its analysis upon the search-incident-to-arrest doctrine as an
exception to the Fourth Amendment’s warrant requirement, ultimately arriving at the
critical distinction for which the Birchfield decision is now known: “Because breath tests
are significantly less intrusive than blood tests and in most cases amply serve law
enforcement interests, . . . a breath test, but not a blood test, may be administered as a
search incident to a lawful arrest for drunk driving.” Id. at 2185. Because a breath test
falls within the search-incident-to-arrest doctrine, it is a valid search, and a state “may
criminalize the refusal to comply . . . just as a State may make it a crime for a person to
obstruct the execution of a valid search warrant.” Id. at 2172. Thus, Bernard lawfully
could be punished for his refusal to comply with a warrantless breath test. “That test was
a permissible search incident to Bernard’s arrest for drunk driving . . . . Accordingly, the
Fourth Amendment did not require officers to obtain a warrant prior to demanding the test,
and Bernard had no right to refuse it.” Id. at 2186 (emphasis in original).
“Blood tests are a different matter.” Id. at 2178. The Court reasoned that, due to
the necessity of piercing the skin to extract a vital bodily fluid, due to the increased
expectation of privacy in blood as compared to breath, and due to the quantum of

[J-103-2018] [MO: Dougherty, J.] - 6

information that may be gleaned from a blood sample beyond a mere BAC reading, a
blood test is qualitatively different from a breath test. Id. “Blood tests are significantly
more intrusive, and their reasonableness must be judged in light of the availability of the
less invasive alternative of a breath test.”

Id. at 2184.

The Court added that the

government had “offered no satisfactory justification for demanding the more intrusive
alternative without a warrant.” Id. Thus, the Court held that blood tests do not qualify for
categorical exception from the warrant requirement under the search-incident-to-arrest
doctrine.
After concluding that blood tests are too invasive to fall within the search-incidentto-arrest exception to the warrant requirement, the Birchfield Court turned to the viability
of “implied consent” laws as an alternative justification for warrantless blood draws. The
Court’s comparatively terse rejection of the proposition has engendered substantial
confusion. The Court reasoned:
Having concluded that the search incident to arrest doctrine does not justify
the warrantless taking of a blood sample, we must address respondents’
alternative argument that such tests are justified based on the driver’s
legally implied consent to submit to them. It is well established that a search
is reasonable when the subject consents, e.g., Schneckloth v. Bustamonte,
412 U.S. 218, 219 (1973), and that sometimes consent to a search need
not be express but may be fairly inferred from context, cf. Florida v.
Jardines, 569 U.S. 1, 133 S.Ct. 1409, 1415-16 (2013); Marshall v. Barlow’s,
Inc., 436 U.S. 307, 313 (1978). Our prior opinions have referred approvingly
to the general concept of implied-consent laws that impose civil penalties
and evidentiary consequences on motorists who refuse to comply. See,
e.g., McNeely, 133 S.Ct. 1552, 1565-66 (plurality opinion); South Dakota v.
Neville, 459 U.S. 553, 560 (1983). Petitioners do not question the
constitutionality of those laws, and nothing we say here should be read to
cast doubt on them.
It is another matter, however, for a State not only to insist upon an intrusive
blood test, but also to impose criminal penalties on the refusal to submit to
such a test. There must be a limit to the consequences to which motorists
may be deemed to have consented by virtue of a decision to drive on public
roads.

[J-103-2018] [MO: Dougherty, J.] - 7

Id. at 2185 (citations modified). Applying the Fourth Amendment’s governing standard of
“reasonableness,” the Court held “that motorists cannot be deemed to have consented to
submit to a blood test on pain of committing a criminal offense.” Id. at 2186.
An important observation must be made at this juncture. Post-Birchfield, this Court
and many others have considered arguments suggesting that, pursuant to this passage
of Birchfield, warrantless blood tests conducted under implied consent schemes do not
violate the Fourth Amendment, so long as refusal does not trigger the imposition of
criminal punishment. Such is the view of the Supreme Court of Vermont, upon which
today’s Majority relies. See Majority Opinion at 21 (quoting State v. Rajda, 196 A.3d
1108, 1121 (Vt. 2018) (“In Birchfield, the U.S. Supreme Court has ruled, with respect to
the more invasive blood test, that only criminalizing the revocation of implied consent
crosses the line in terms of impermissibly burdening the Fourth Amendment.”)); see also
Fitzgerald v. People, 394 P.3d 671, 676 (Colo. 2017) (“[T]he Supreme Court has all but
said that anything short of criminalizing refusal does not impermissibly burden or penalize
a defendant’s Fourth Amendment right to be free from an unreasonable warrantless
search.”).
Accepting this position requires us to foist upon Birchfield an untenable reading of
the Court’s reasoning.

Recall the Birchfield Court’s heuristic for resolving the

constitutional question upon which it granted certiorari: “that the criminal law ordinarily
may not compel a motorist to submit to the taking of a blood sample or to a breath test”
without a warrant, unless “such warrantless searches comport with the Fourth
Amendment,” in which case, “a State may criminalize the refusal to comply with a demand
to submit to the required testing, just as a State may make it a crime for a person to
obstruct the execution of a valid search warrant.” Birchfield, 136 S.Ct. at 2172. That is,
the validity of the search is dispositive of the lawfulness of the penalty for refusal to

[J-103-2018] [MO: Dougherty, J.] - 8

cooperate—not the other way around. A State may penalize the obstruction of a valid
search, but it may not penalize an individual for refusing to acquiesce to an
unconstitutional search or seizure.
If we understand Birchfield as holding that warrantless blood draws “comport with
the Fourth Amendment,” id., provided that no criminal penalties attend refusal, then
Birchfield cannot be reconciled with itself. If such a search is valid, then its obstruction
may be penalized, “just as a State may make it a crime for a person to obstruct the
execution of a valid search warrant.” Id. But those penalties, under this constricted
understanding of Birchfield’s holding, would render the search invalid. Strike out the
penalties, and the search again would be valid. But as a valid search, it would be
permissible to penalize its obstruction. This circular exercise continues ad infinitum,
rendering Birchfield incoherent by its own terms.2
Avoiding the Birchfield paradox requires only that we recognize what is implicit in
Birchfield’s reasoning: absent exigent circumstances, a warrantless blood test generally
does not “comport with the Fourth Amendment.” Id. A breath test is categorically valid
without a warrant, but a blood test is not. This was the “compromise” that the Court
reached. See id. at 2198 (Thomas, J., dissenting). The Court’s thoroughly reasoned
distinctions between breath and blood were all in service of that compromise. At least

With respect to this observation, the Majority asserts that I have “manufacture[d]
an illusory circularity problem where one does not exist.” Majority Opinion at 22 n.14.
The problem is not of my making. Quite simply, the Birchfield Court determined that
criminal penalties lawfully may attach to the refusal to submit to a valid search. See
Birchfield, 136 S.Ct. at 2172. The Court then concluded (within its discussion of the
government’s alternative “implied consent” argument) that criminal penalties cannot
attach to the refusal to submit to a warrantless blood test. Id. at 2186. It follows that a
warrantless blood test cannot be deemed categorically valid because, otherwise, the
criminal penalties that the Court forbade would be permissible by its own rationale. What
the Majority characterizes as “an illusory circularity problem where one does not exist,” I
would call Birchfield’s ratio decidendi.
2

[J-103-2018] [MO: Dougherty, J.] - 9

some consequences of that compromise are straightforward. Upon lawful arrest of a DUI
suspect, police officers may demand submission to a breath test—without a search
warrant—in every case. Birchfield holds that this manner of search “in most cases amply
serve[s] law enforcement interests.” Id. at 2185. Because a breath test is a valid search,
refusal to submit may be criminally punished. Id. at 2186. As for blood testing, we are
left with a warrantless Fourth Amendment search wanting for an exception.
Although statutorily “implied consent” may appear facially to be a viable path to a
warrant exception, for all the reasons discussed in our plurality opinion in Commonwealth
v. Myers, 164 A.3d 1162 (Pa. 2017) (plurality), and others, this theory is incompatible with
the Fourth Amendment. It bears mention that the Supreme Court of the United States
has never held that a motorist may be subjected to a warrantless blood draw solely upon
the basis that he or she “consented” to such an intrusion by obtaining a driver’s license
or by driving on public roads. Birchfield certainly does not stand for such a proposition.
Indeed, the suggestion that the mere omission of criminal penalties renders a blood draw
constitutional under “implied consent” results in the aforementioned paradox—that
obstruction of a valid search may be penalized but imposing those penalties renders the
search invalid.
Birchfield further undermines the “implied consent” suggestion. In discussing the
different benefits that each manner of testing may provide, the Court noted that, unlike a
breath test, a blood test can detect substances other than alcohol that may impair the
motorist’s ability to operate a vehicle safely. The Court reasoned that “[n]othing prevents
the police from seeking a warrant for a blood test when there is sufficient time to do so in
the particular circumstances or from relying on the exigent circumstances exception to
the warrant requirement when there is not.” Birchfield, 136 S.Ct. at 2184 (emphasis
added).

Similarly, the Court noted that, unlike a breath test, a blood test may be

[J-103-2018] [MO: Dougherty, J.] - 10

administered to a person who is unconscious. The Court stated that it had “no reason to
believe that such situations are common in drunk-driving arrests, and when they arise,
the police may apply for a warrant if need be.” Id. at 2185 (emphasis added). Finally, a
blood test may be necessary where a motorist foils a breath test by failing to provide a
sufficient sample. The Court noted that such conduct may constitute a refusal to comply
with breath testing and may be prosecuted as such. “And again, a warrant for a blood
test may be sought.” Id.3 The Court did not suggest at any point that warrantless blood
testing may be permissible upon the basis of a statutory implied consent provision alone.
No decision of the High Court ever has so held.
It is incongruous to conclude that a blood test is too intrusive, and compromises
privacy interests too much, to qualify for categorical treatment under the search-incidentto-arrest exception to the warrant requirement, yet may be given categorical treatment
3

The Majority characterizes Birchfield’s discussions of the distinctions between
breath testing and blood testing as “dicta” that I have found “useful.” Majority Opinion at
22 n.14. I must respectfully disagree with this characterization. Dictum is a “judicial
comment made while delivering a judicial opinion, but one that is unnecessary to the
decision in the case and therefore not precedential (although it may be considered
persuasive).” Obiter dictum, BLACK’S LAW DICTIONARY (10th ed. 2014). The distinctions
between breath testing and blood testing, and the relative benefits of each manner of
search, were directed toward the Court’s dispositive conclusions that breath tests “in most
cases amply serve law enforcement interests,” Birchfield, 136 S.Ct. at 2185; that the
necessity of a blood draw “must be judged in light of the availability of the less invasive
alternative of a breath test,” id. at 2184; that the government had “offered no satisfactory
justification for demanding the more intrusive alternative without a warrant,” id.; and,
ultimately, the Court’s conclusion that blood tests do not qualify for categorical exception
from the warrant requirement under the search-incident-to-arrest doctrine. Id. at 2185.
Indeed, the drawing of a constitutionally significant distinction between breath testing and
blood testing was the very core of Birchfield’s holding. If these passages are “dicta,” it is
difficult to discern what is not.
By contrast, and by way of illustration, any suggestion in Birchfield regarding the
continued constitutional validity of “civil penalties and evidentiary consequences”
imposed upon motorists for refusal to consent to a warrantless blood test—issues that
were not before the Court and not essential to its holding—is more properly characterized
as dictum. Id.

[J-103-2018] [MO: Dougherty, J.] - 11

under the consent exception. Indeed, comparing the search-incident-to-arrest doctrine
to the exception for exigent circumstances, the Birchfield Court noted that the exigent
circumstances exception “has always been understood to involve an evaluation of the
particular facts of each case.” Id. at 2183. By contrast, the Court noted, under the searchincident-to-arrest exception, the “authority is categorical.”

Id.

Like the exigent

circumstances exception, the consent exception always has been understood to require
an evaluation of the particular facts of each case, under the totality of the circumstances.
See Schneckloth, 412 U.S. at 248-49 (“Voluntariness is a question of fact to be
determined from all the circumstances.”); Birchfield, 136 S.Ct. at 2186 (“voluntariness of
consent to a search must be ‘determined from the totality of all the circumstances’”)
(quoting Schneckloth, 412 U.S. at 227). It would seem that insulating the more intrusive
blood test from such categorical treatment was the very purpose of the Birchfield Court’s
distinction between breath testing and blood testing and its decision to exclude blood
testing from the search-incident-to-arrest doctrine. If every motorist categorically may be
deemed to have consented to this more intrusive form of search, then the Court’s
distinction serves little purpose indeed.
One might construe statutory “implied consent” to require that a motorist’s Fourth
Amendment rights be curtailed as a condition of exercising the privilege of driving, or that
the decision to exercise that privilege establishes a motorist’s consent to blood testing.
See Myers, 164 A.3d at 1182 (Saylor, C.J., concurring) (“[I]t seems to me that the
voluntary act of operating a vehicle suffices to establish the initial consent to chemical
testing.”)

However, this understanding of “implied consent” is in tension with the

unconstitutional conditions doctrine. As the Supreme Court of the United States recently
explained, the unconstitutional conditions doctrine “vindicates the Constitution’s
enumerated rights by preventing the government from coercing people into giving them

[J-103-2018] [MO: Dougherty, J.] - 12

up.” Koontz v. St. Johns River Water Mgmt. Dist., 570 U.S. 595, 604 (2013). “[T]he
government may not deny a benefit to a person because he exercises a constitutional
right.” Id. (quoting Regan v. Taxation With Representation of Wash., 461 U.S. 540, 545
(1983)). The Supreme Court has applied the doctrine “in a variety of contexts” and to
constitutional rights as varied as land ownership, freedom of speech, and the right to
travel. Id. (citing Perry v. Sindermann, 408 U.S. 593 (1972) (speech); Mem’l Hosp. v.
Maricopa Cty., 415 U.S. 250 (1974) (travel)).
Under the unconstitutional conditions doctrine, it is immaterial that driving an
automobile is a privilege rather than a fundamental right. See Majority Opinion at 12-13
(citing PennDOT v. Scott, 684 A.2d 539, 544 (Pa. 1996)). As the Supreme Court of the
United States has explained:
Virtually all of our unconstitutional conditions cases involve a gratuitous
governmental benefit of some kind. See, e.g., Regan, 461 U.S. 540 (tax
benefits); Mem’l Hosp., 415 U.S. 250 (healthcare); Perry, 408 U.S. 593
(public employment); United States v. Butler, 297 U.S. 1, 71 (1936) (crop
payments); Frost & Frost Trucking Co. v. R.R. Comm’n of Cal., 271 U.S.
583 (1926) (business license). Yet we have repeatedly rejected the
argument that if the government need not confer a benefit at all, it can
withhold the benefit because someone refuses to give up constitutional
rights. E.g., United States v. Am. Library Assn., Inc., 539 U.S. 194, 210
(2003) (“[T]he government may not deny a benefit to a person on a basis
that infringes his constitutionally protected . . . freedom of speech even if he
has no entitlement to that benefit” (emphasis added and internal quotation
marks omitted)); Wieman v. Updegraff, 344 U.S. 183, 191 (1952)
(explaining in unconstitutional conditions case that to focus on “the facile
generalization that there is no constitutionally protected right to public
employment is to obscure the issue”).
Koontz, 570 U.S. at 608 (citations modified). Under this doctrine, and notwithstanding
that driving an automobile is a privilege or a “gratuitous government benefit,” id., the
government cannot condition the exercise of this privilege upon motorists’ relinquishment
of their Fourth Amendment rights. The High Court in Frost long ago reasoned:

[J-103-2018] [MO: Dougherty, J.] - 13

It would be a palpable incongruity to strike down an act of state legislation
which, by words of express divestment, seeks to strip the citizen of rights
guaranteed by the federal Constitution, but to uphold an act by which the
same result is accomplished under the guise of a surrender of a right in
exchange for a valuable privilege which the state threatens otherwise to
withhold. It is not necessary to challenge the proposition that, as a general
rule, the state, having power to deny a privilege altogether, may grant it
upon such conditions as it sees fit to impose. But the power of the state in
that respect is not unlimited, and one of the limitations is that it may not
impose conditions which require the relinquishment of constitutional rights.
If the state may compel the surrender of one constitutional right as a
condition of its favor, it may, in like manner, compel a surrender of all. It is
inconceivable that guaranties embedded in the Constitution of the United
States may thus be manipulated out of existence.
Frost, 271 U.S. at 593-94.
For all these reasons, implied consent does not pass muster as a basis for
dispensing with the warrant requirement for blood tests, or for demanding that a motorist
relinquish his or her Fourth Amendment rights upon occupying the driver’s seat of an
automobile.4 Absent exigent circumstances, we are left with actual, voluntary consent as
4

Bell placed the unconstitutional conditions doctrine at issue from the inception of
this case. Although the Majority quotes from Bell’s pre-trial motion to dismiss, it excises
Bell’s citation to the unconstitutional conditions doctrine. Compare Majority Opinion at 11
(quoting Motion to Dismiss, 3/8/2016, at 2) (“Pennsylvania’s Implied Consent Law violates
Article 1, Section 8 of the Pennsylvania Constitution and the Fourth Amendment to the
United States Constitution[,]”) with Motion to Dismiss, 3/8/2016, at 2 (“Pennsylvania’s
Implied Consent Law violates Article 1, Section 8 of the Pennsylvania Constitution and
the Fourth Amendment to the United States Constitution under the Unconstitutional
Conditions Doctrine.”) (emphasis added). Regardless, I do not discuss the doctrine as a
separate issue or independent basis for granting relief, but, rather, merely for the purpose
of articulating fully my conclusion on the threshold issue that underlies the question at
bar: that there is no categorical basis upon which to dispense with the warrant
requirement for blood testing and, thus, no valid Fourth Amendment search as to which
a motorist’s cooperation lawfully may be compelled.
The Majority opines that the unconstitutional conditions doctrine is “inapplicable”
because, due to the statutory right to refuse chemical testing under 75 Pa.C.S. § 1547(b),
the “implied consent law does not condition the privilege of driving upon a motorist’s
submission to future warrantless blood testing.” Majority Opinion at 20 n.12. To the
contrary, this is precisely what the implied consent law does. The statute indeed provides
a right of refusal, which allows a motorist to avoid the circumstance in which a blood

[J-103-2018] [MO: Dougherty, J.] - 14

the only possible justification for the failure to obtain a search warrant prior to conducting
a blood draw. This is precisely the inquiry that Birchfield left open when remanding
petitioner Beylund’s case:
The North Dakota Supreme Court held that Beylund’s consent was
voluntary on the erroneous assumption that the State could permissibly
compel both blood and breath tests. Because voluntariness of consent to
a search must be ‘determined from the totality of all the circumstances,’
Schneckloth, 412 U.S. at 227, we leave it to the state court on remand to
reevaluate Beylund’s consent given the partial inaccuracy of the officer’s
advisory.
Birchfield, 136 S.Ct. at 2186 (citation modified).
One observation is obvious: an individual has a constitutional right to refuse to
consent to a search that is not authorized by a warrant or a valid exception to the warrant
requirement. Although “the subject’s knowledge of a right to refuse” is not “a prerequisite
to establishing a voluntary consent,” Schneckloth, 412 U.S. at 249, it is nonetheless
inherent in the request for consent that the individual retains a right to decline. For this
reason, the Superior Court in the instant case patently erred in concluding that Bell “had
no constitutional right to refuse a [warrantless] blood test upon his lawful arrest for DUI.”
Commonwealth v. Bell, 167 A.3d 744, 749 (Pa. Super. 2017).
For this conclusion, the Superior Court relied principally upon a statement to that
effect in Neville. See Neville, 459 U.S. at 560 n.10 (“[A] person suspected of drunk driving
has no constitutional right to refuse to take a blood-alcohol test.”). However, as noted
above, Neville addressed only whether evidence of refusal is “testimonial” for purposes

sample is taken forcibly and against the motorist’s will. Nonetheless, the statutory
scheme, as written, unequivocally demands that a motorist submit to warrantless blood
testing. Upon the motorist’s invocation of the statutory right of refusal, the Commonwealth
will “suspend the operating privilege” of the motorist. 75 Pa.C.S. § 1547(b)(1). In other
words, the statute unambiguously conditions the privilege of operating a motor vehicle
upon the motorist’s submission to warrantless blood testing.

[J-103-2018] [MO: Dougherty, J.] - 15

of the Fifth Amendment’s right against self-incrimination.

Neville had no Fourth

Amendment component. Accordingly, any comment in Neville regarding the validity of a
warrantless blood test under the Fourth Amendment is dictum. Moreover, Neville’s
commentary on this matter was premised upon the notion that “Schmerber . . . clearly
allows a State to force a person suspected of driving while intoxicated to submit to a blood
alcohol test.” Id. at 559. As noted above, McNeely squarely rejected this categorical
understanding of Schmerber. Accordingly, the Superior Court not only relied upon dicta
for its essential legal conclusion, but outdated dicta that is irreconcilable with McNeely
and Birchfield.

Here, there was no search warrant, no demonstration of exigent

circumstances, and no other valid exception to the warrant requirement. Accordingly, Bell
had a constitutional right to refuse to consent to the unconstitutional search.
II.

Penalization of the Exercise of a Constitutional Right

Notwithstanding the fact that the blood test requested of Bell was unconstitutional,
authorized by neither a search warrant nor a valid exception to the warrant requirement,
was it permissible to introduce evidence of Bell’s refusal at trial to prove his
consciousness of guilt? To answer this question in the affirmative is to disregard the
Supreme Court of the United States’ repeated proclamations that a State may not
penalize the exercise of individual constitutional rights.
“It has long been established that a State may not impose a penalty upon those
who exercise a right guaranteed by the Constitution.” Harman v. Forssenius, 380 U.S.
528, 540 (1965) (citing Frost, 271 U.S. 583). “‘Constitutional rights would be of little value
if they could be . . . indirectly denied’ or ‘manipulated out of existence.’” Id. (quoting Smith
v. Allwright, 321 U.S. 649, 664 (1944), and Gomillion v. Lightfoot, 364 U.S. 339, 345
(1960)).

Thus, in Griffin v. California, 380 U.S. 609 (1965), the Court held that

prosecutorial commentary and trial court instructions that raise an inference of guilt based

[J-103-2018] [MO: Dougherty, J.] - 16

upon a defendant’s exercise of his constitutional right not to testify violate the Fifth
Amendment’s right against self-incrimination. The Griffin Court reasoned that the use of
a defendant’s silence in this manner “is a penalty imposed by courts for exercising a
constitutional privilege.” Id. at 614. “It cuts down on the privilege by making its assertion
costly.” Id. The Court held that so burdening the exercise of a right is repugnant to the
Constitution.
It is true that Griffin, like Neville, was a Fifth Amendment decision, not premised
upon the Fourth Amendment.

However, the Supreme Court has extended Griffin’s

reasoning beyond the self-incrimination context to a wholly distinct constitutional right—
the Sixth Amendment right to a jury trial. In United States v. Jackson, 390 U.S. 570
(1968), the Court addressed the constitutionality of a provision of the then-applicable
Federal Kidnaping Act, which authorized the death penalty “if the verdict of the jury shall
so recommend,” but contained “no procedure for imposing the death penalty upon a
defendant who waives the right to jury trial or upon one who pleads guilty.” Id. at 571.
The Court reasoned that the statutory language unconstitutionally disincentivized the
defendant’s exercise of the right to a jury trial:
Whatever might be said of Congress’ objectives, they cannot be pursued by
means that needlessly chill the exercise of basic constitutional rights. The
question is not whether the chilling effect is ‘incidental’ rather than
intentional; the question is whether that effect is unnecessary and therefore
excessive.
Id. at 582. Citing Griffin, the Jackson Court held that, “[w]hatever the power of Congress
to impose a death penalty for violation of the Federal Kidnaping Act, Congress cannot
impose such a penalty in a manner that needlessly penalizes the assertion of a
constitutional right.” Id. at 583. Accordingly, the Court has not limited the rule of Griffin
to the right against self-incrimination, but, rather, has signaled that Griffin embodies the

[J-103-2018] [MO: Dougherty, J.] - 17

High Court’s broad disapproval of State action that “impose[s] a penalty upon those who
exercise a right guaranteed by the Constitution.” Harman, 380 U.S. at 540.
Both this Court and our Superior Court, as well as numerous courts of our sister
states, have applied similar reasoning in the Fourth Amendment context, and have held
that the use of an individual’s refusal to consent to a warrantless, unjustified search
cannot be used as evidence of consciousness of guilt at trial. In Commonwealth v. Welch,
585 A.2d 517 (Pa. Super. 1991), our Superior Court held that trial testimony regarding a
defendant’s refusal to consent to a search of her bedroom unduly burdened her Fourth
Amendment rights. The court reasoned:
As we read the various comments made by the courts regarding the
assertion of one’s Fifth Amendment right, the overriding tone is that it is
philosophically repugnant to the extension of constitutional rights that
assertion of that right be somehow used against the individual asserting it.
Although the cases have discussed the Fifth Amendment right we see no
reason to treat one’s assertion of a Fourth Amendment right any differently.
It would seem just as illogical to extend protections against unreasonable
searches and seizures, including the obtaining of a warrant prior to
implementing a search, and to also recognize an individual’s right to refuse
a warrantless search, yet allow testimony regarding such an assertion of
that right at trial in a manner suggesting that it is indicative of one’s guilt.
Id. at 519.
This Court recently reached the same conclusion in Commonwealth v. Chapman,
136 A.3d 126 (Pa. 2016). In Chapman, a capital direct appeal, this Court addressed the
defendant’s claim that “his constitutionally protected refusal to voluntarily surrender a
DNA sample to investigators was wrongfully used against him at trial.” Id. at 129. We
rejected the defendant’s assertion that commentary upon his failure to consent to a
search violated his Fifth Amendment right against self-incrimination, but noted that “the
circumstances presented implicate a broader due process concern.” Id. at 131.

[J-103-2018] [MO: Dougherty, J.] - 18

“In this regard,” we reasoned, “the admission of evidence of a refusal to consent
to a warrantless search to demonstrate consciousness of guilt is problematic, as most
jurisdictions hold (outside the context of implied-consent scenarios) that such admission
unacceptably burdens an accused’s right to refuse consent.” Id. We noted that federal
appellate courts unanimously accept this proposition, as do numerous state courts. See
id. at 131 n.4 (citing, inter alia, United States v. Runyan, 290 F.3d 223, 249 (5th Cir. 2002)
(“[T]he circuit courts that have directly addressed this question have unanimously held
that a defendant’s refusal to consent to a warrantless search may not be presented as
evidence of guilt.”); Bargas v. State, 489 P.2d 130, 132 (Alaska 1971) (“It would make
meaningless the constitutional protection against unreasonable searches and seizures if
the exercise of that right were allowed to become a badge of guilt.”)). We further noted,
“[a]s an aside,” that “such treatment contrasts with the response in scenarios in which a
defendant resists providing a sample during the execution of a duly authorized search
warrant.” Id. (citing United States v. Ashburn, 76 F.Supp.3d 401, 444-46 (E.D.N.Y.
2014)).
Today’s Majority declines to address the High Court’s precedents regarding the
penalization of the exercise of constitutional rights.5 To justify this omission, the Majority
The Majority’s insistence to the contrary notwithstanding, I do not “criticize” the
Majority for declining to address the unconstitutional conditions doctrine. Majority Opinion
at 19 n.12. As I explained above, supra n.4, I have discussed that doctrine for the purpose
of addressing the important threshold question of whether a warrantless blood test may
be justified under any of the exceptions to the Fourth Amendment’s warrant
requirement—here, consent. The unconstitutional conditions doctrine is one among
several reasons that construing “implied consent” as a categorical exception to the
warrant requirement is a legal fiction that cannot withstand constitutional scrutiny. See
supra Part I. The doctrine does not control the narrower derivative question before us, at
least not directly.
5

By contrast, the decisions of The Supreme Court of the United States disfavoring
penalization of constitutional rights are directly relevant to the precise issue presented
here. In considering this issue, it is indeed incumbent upon this Court to consult the limits

[J-103-2018] [MO: Dougherty, J.] - 19

states that Bell does not “cite to any of the High Court’s cases discussing the penalization
of constitutional rights, but instead cites solely to the distinguishable cases of Chapman
and Welch.” Majority Opinion at 19 n.12. As I discuss below, Chapman and Welch are
not so easily distinguished in light of McNeely and Birchfield. Even more problematic,
however, is the Majority’s perspective with regard to the scope of this Court’s ability to
survey applicable and controlling law. Rather than testing its reasoning against the
holdings of The Supreme Court of the United States, the Majority prefers to set a
dangerous and unfounded precedent suggesting that the universe of applicable law is
limited to the Table of Citations section of an appellant’s brief.
Notably, the Majority recognizes that “[t]he United States Supreme Court’s
decisions in McNeely and Birchfield and this Court’s decision in Myers indicate a
warrantless blood test, which is conducted when no exceptions to the warrant
requirement apply, violates the Fourth Amendment rights of a motorist suspected of DUI.”
Majority Opinion at 18. The Majority also stops short of stating that a statutory implied
consent provision supplies such an exception to the warrant requirement. Faced thus
with an individual’s voluntary consent as the remaining potential justification for the failure
to obtain a search warrant for a blood draw, the Majority declines to recognize the
constitutional significance of the right not to consent, or the impermissibility of penalizing
an individual for exercising that right.6

Rather, the Majority avoids applying these

principles to the question at bar entirely through resort to dicta and nonbinding authority.
that the High Court has set in this arena in cases such as Griffin and Jackson. It is not
“spurious” to suggest that a court of last resort undertake such a review, Majority Opinion
at 19 n.12, nor would the endeavor mean that we would “act as advocates.” Id. at 20
n.12. Rather, addressing the High Court’s precedents that bear upon the question before
us is part of our duty as an appellate court to ensure conformity with governing law.
6

The Majority offers only a conclusory citation to Jenkins v. Anderson, 447 U.S. 231
(1980), for the proposition that “the Constitution does not forbid ‘every governmentimposed choice in the criminal process that has the effect of discouraging the exercise of

[J-103-2018] [MO: Dougherty, J.] - 20

The Majority places substantial weight upon our parenthetical caveat in Chapman,
that “the admission of evidence of a refusal to consent to a warrantless search to
demonstrate consciousness of guilt is problematic, as most jurisdictions hold (outside

constitutional rights.’” Id. at 236 (quoting Chaffin v. Stynchcombe, 412 U.S. 17, 30
(1973)); see Majority Opinion at 18-19. The very next sentence in Jenkins, however,
clarifies that the “threshold question is whether compelling the election impairs to an
appreciable extent any of the policies behind the rights involved.” Jenkins, 447 U.S. at
236 (quoting Chaffin, 412 U.S. at 32). Chaffin, further, noted that the jury sentencing
procedure at issue therein was “utilized for legitimate purposes and not as a means of
punishing or penalizing the assertion of protected rights.” Chaffin, 412 U.S. at 32 n.20.
That is distinct, Chaffin reasoned, from a practice designed to discourage the exercise of
constitutional rights. Id. (“[I]f the only objective of a state practice is to discourage the
assertion of constitutional rights it is ‘patently unconstitutional.’”) (quoting Shapiro v.
Thompson, 394 U.S. 618, 631 (1969)).
The sole purpose of the implied consent law’s consequences of refusal is to induce a
motorist’s compliance with chemical testing. Where the motorist has a constitutional right
to refuse to consent—as for a blood test, but not a breath test—the “only objective” of the
evidentiary consequence at issue in this case is to “discourage the assertion” of that right.
Id. In Chaffin’s parlance, such a practice is “patently unconstitutional.” Id. The practice
is designed to persuade motorists into relinquishing their Fourth Amendment rights
through the promise of future punishment, so that evidence which otherwise requires a
search warrant may be obtained in the absence of a warrant. This is a circumvention of
the warrant requirement which, thus, “impairs to an appreciable extent . . . the policies
behind” the Fourth Amendment. Jenkins, 447 U.S. at 236; Chaffin, 412 U.S. at 32.
Accordingly, although the Majority is correct that not every choice in the criminal process
that discourages the exercise of a right is unconstitutional, the choice compelled in this
circumstance bears all of the hallmarks of an unconstitutional practice.
The Majority posits that the evidentiary consequence at issue “does not solely punish a
defendant” but also has a legitimate purpose of allowing jurors to “understand why the
State is not submitting an evidentiary test in a DUI prosecution.” Majority Opinion at 19
n.11 (quoting Rajda, 196 A.3d at 1120) (emphasis added). Satisfaction of the potential
curiosity of a hypothetical future juror is no justification whatsoever for demanding the
relinquishment of a fundamental constitutional right. Moreover, no such confusion ever
is necessary. Police officers simply can request breath tests—which remain categorically
valid under Birchfield even absent a warrant—and/or they can obtain search warrants for
blood tests. In either circumstance, if the motorist complies, the desired evidence is
obtained and may be placed before the jury. If the motorist refuses, then refusal evidence
constitutionally may be introduced, and no juror will wonder about its absence. There
remains no satisfactory justification for compromising the Fourth Amendment simply to
make available evidence easier to obtain.

[J-103-2018] [MO: Dougherty, J.] - 21

the context of implied-consent scenarios) that such admission unacceptably burdens
an accused’s right to refuse consent.” Majority Opinion at 18 (quoting Chapman, 136
A.3d at 131) (Majority’s emphasis).

Because Chapman involved no such “implied-

consent scenario,” this parenthetical was dictum, and, as such, has no precedential value.
Even more importantly, the Chapman dictum pre-dates Birchfield. As discussed above,
Birchfield necessarily has altered our understanding of the consequences that may attach
under statutory implied consent schemes.

Put simply, after Birchfield, there is no

categorical exception to the warrant requirement for blood tests. Consequently, we must
treat a request for consent to submit to a blood test no differently than a request for
consent to search a bedroom, as in Welch, or a request for consent to a DNA test, as in
Chapman. As with those other types of warrantless searches, admission into evidence
of one’s refusal to consent to a warrantless blood test to demonstrate consciousness of
guilt is similarly “problematic.”

Chapman, 136 A.3d at 131. Stated otherwise, it is

unconstitutional.
In addition to the Chapman dictum, the other central pillar of the Majority’s analysis
is the following passage from Birchfield:
Our prior opinions have referred approvingly to the general concept of
implied-consent laws that impose civil penalties and evidentiary
consequences on motorists who refuse to comply. Petitioners do not
question the constitutionality of those laws, and nothing we say here should
be read to cast doubt on them.
Majority Opinion at 21 (quoting Birchfield, 136 S.Ct. at 2185) (internal citations omitted).
The Majority elevates this passage to the same level as the Court’s holdings on the issue
granted for review, reading the Court’s reservation of these questions as approval of the
practice of penalizing individuals for their refusal to consent to unconstitutional searches.
See id. (reasoning that the Birchfield Court “did not back away from its prior approval of
other kinds of consequences for refusal, such as ‘evidentiary consequences’”).
[J-103-2018] [MO: Dougherty, J.] - 22

As I read Birchfield’s caveat, the Court merely declined to opine concerning
matters outside the scope of the issue upon which certiorari was granted, which was
limited to the constitutionality of criminal punishment for refusal to submit to warrantless
BAC testing. To be sure, the Court’s statement that its decision should not be “read to
cast doubt on” such “civil penalties and evidentiary consequences” facially appears to
exclude those consequences from the reach of the Court’s holding. Birchfield, 136 S.Ct.
at 2185. However, because the Birchfield Court resolved the question before it upon the
basis of the validity of the underlying search, other constitutional doctrines discussed
herein are implicated, and certain consequences of the Court’s reasoning are
inescapable.
Professor Wayne LaFave has addressed the incongruity that results from reading
Birchfield’s caveat in the manner that the Majority does today:
While it has been established as a Fifth Amendment matter that a defendant
being prosecuted for driving under the influence may not object to the
admission in evidence against him his refusal to submit to a sobriety test at
the time of arrest, what of the claim that such evidence is inadmissible as a
Fourth Amendment matter? The Court in Birchfield noted in passing (just
as it did earlier in McNeely) that “evidence of the motorist’s refusal is
admitted as evidence of likely intoxication in a drunk-driving prosecution,”
and later cautioned that “nothing we say here should be read to cast doubt”
on such “evidentiary consequences on motorists who refuse to comply.”
But that assertion is misleading at best, for Birchfield’s emphasis on the
distinction between when a defendant’s refusal to submit is constitutionally
significant (i.e., for a blood test absent exigent circumstances) and when it
is not (i.e., for all breath tests and for other blood tests) is, by wellestablished pre-existing authority, also relevant to the question of whether
refusal may be admitted into evidence to show defendant’s guilt. What the
cases indicate is that when defendant’s refusal was within the context of a
recognized search-warrant-required category, then the Fourth Amendment
prohibits admission of that refusal into evidence. . . . But on the other hand,
when it is first determined that no warrant was required in any event (e.g.,
taking a breath sample), comment on the refusal is permissible.

[J-103-2018] [MO: Dougherty, J.] - 23

4 W AYNE R. LAFAVE & DAVID C. BAUM, SEARCH & SEIZURE § 8.2(l), at 27 (5th ed. Supp.
2018) (hereinafter, “LAFAVE”) (footnotes and emphasis omitted).
Either the Birchfield Court simultaneously, and sub silentio, curtailed several
distinct constitutional doctrines—including the principle that an individual may not be
penalized for exercising a constitutional right, the bedrock rule that consent to a search
may not be coerced, and the prohibition upon conditioning the exercise of a privilege upon
the relinquishment of a constitutional right—or there is a simpler answer. I propose a rule
that makes sense of Birchfield and does not run afoul of these other important
constitutional principles. When it comes to blood testing, the rule is “simple—get a
warrant.” Riley v. California, 573 U.S. 373, 403 (2014). Once the officer has obtained a
warrant for a blood test—and not a moment before—all of the penalties set forth in the
implied consent law are available and constitutional.7
Perhaps the most conceptually challenging consequence of the Birchfield decision
is recognizing that “implied consent” has nothing to do with consent in the Fourth
Amendment sense, as it has been defined in Schneckloth and a legion of other decisions.8
7

Although the consequence of driver’s license suspension is not at issue herein, I
note that Professor LaFave suggests that the “issue should be resolved in the same
fashion” that the Birchfield Court resolved the issue of criminal penalties, reasoning:
While the Birchfield Court stated only that the “limit to the consequences to
which a motorist may be deemed to have consented by virtue of a decision
to drive on public roads” is passed when “criminal penalties” of any
magnitude are imposed, surely the driver who is thus constitutionally
protected from a $10 criminal fine must likewise be protected from the more
serious penalty of revocation of driving privileges.
LAFAVE, § 8.2(l), at 27 (emphasis in original). As with all of the other consequences set
forth in the implied consent law, validation of this penalty is as simple as obtaining a
search warrant for a blood test.
Indeed, in one of the only mentions of “implied consent” in the High Court’s recent
plurality decision in Mitchell v. Wisconsin, the Court noted that its previous decisions
“have not rested on the idea that these laws do what their popular name might seem to
8

[J-103-2018] [MO: Dougherty, J.] - 24

BAC testing generally requires a motorist’s cooperation, and implied consent laws are
statutory schemes intended “to find a way of securing such cooperation.” Birchfield, 136
S.Ct. at 2168. They do so by imposing consequences—or penalties—upon the failure to
cooperate. Id. at 2166 (“These laws impose penalties on motorists who refuse to undergo
testing.”) But BAC tests are searches for purposes of the Fourth Amendment, and
Birchfield requires that, in order to serve as a constitutional basis for the imposition of
such consequences, those searches must “comport with the Fourth Amendment.” Id. at
2172. Indeed, every time that the Birchfield Court spoke of “implied consent,” it referred
to these statutory consequences of refusal, not to an exception to the Fourth
Amendment’s warrant requirement. In this regard, statutory implied consent provisions
should be regarded as mandates that a motorist cooperate with a valid search, not as
mechanisms to allow circumvention of the requirements of the Fourth Amendment.
Importantly, where the Majority makes no attempt to recognize or resolve the
manifest tension between its holding and the established constitutional doctrines that its
holding compromises, my analysis of the question at bar not only is consistent with the
reasoning of Birchfield, but provides a constitutionally permissible and jurisprudentially
consistent path to the imposition of all of the consequences set forth in the implied consent
law. Civil, criminal, and evidentiary consequences of refusal all remain constitutional.
They have only one prerequisite—a valid search under the Fourth Amendment.
It is perhaps helpful to summarize the application of these principles in practice.
Upon conducting a lawful arrest of a motorist suspected of DUI, a police officer may
demand the motorist’s submission to a breath test. As a valid search incident to arrest,

suggest—that is, create actual consent to all the searches they authorize.” Mitchell, 139
S.Ct. at 2533 (plurality). Although the Court’s plurality ruled upon a different basis and
this statement accordingly is not controlling, it provides insight into the Court’s rationale
in Birchfield.

[J-103-2018] [MO: Dougherty, J.] - 25

no search warrant is required. The police officer may warn the motorist that the failure to
cooperate with the breath test will result in criminal punishment, civil penalties, and
evidentiary consequences. If the motorist complies, then BAC evidence is obtained. If
the motorist refuses, then the full complement of consequences set forth in the implied
consent law may constitutionally be imposed.
If the police officer wishes to conduct a search of the motorist’s blood, and the
circumstances do not give rise to an exigency, then a search warrant is required. Under
McNeely, there is no per se exigency.
inapplicable pursuant to Birchfield.

The search-incident-to-arrest doctrine is

Threats of increased criminal penalties, the

suspension of the motorist’s driver’s license, and the use of the motorist’s refusal to
consent as evidence of his guilt should all be regarded as coercive, and inconsistent with
a conclusion “that the consent was in fact voluntarily given, and not the result of duress
or coercion, express or implied.” Schneckloth, 412 U.S. at 248. “For, no matter how
subtly the coercion was applied, the resulting ‘consent’ would be no more than a pretext
for the unjustified police intrusion against which the Fourth Amendment is directed.” Id.
at 228. At the very least, to ultimately impose any of these consequences, including the
one at issue in the case at bar, is to penalize the exercise of a constitutional right. Such
penalization is impermissible under the well-settled precedents of the Supreme Court of
the United States. See, e.g., Harman, 380 U.S. at 540; Griffin, 380 U.S. at 614.
However, once the police officer obtains a search warrant for a blood test (or
establishes a true exigency), the search is valid, and the motorist has no right to refuse
it. At that point, the blood test is equivalent to a breath test. If the motorist complies, the
desired evidence is obtained.

If the motorist refuses, then the full complement of

consequences set forth in the implied consent law may constitutionally be imposed. The
only distinction between these scenarios is that a blood test, but not a breath test, requires

[J-103-2018] [MO: Dougherty, J.] - 26

compliance with the Fourth Amendment’s warrant requirement. Such was the reason that
the Birchfield Court drew a constitutionally significant distinction between the types of
testing at issue.
Things play out very differently under the Majority’s approach. Under today’s
holding, the police officer not only may demand the motorist’s submission to a warrantless
blood test—an unconstitutional search—but later may testify regarding the motorist’s
refusal to consent to that search, so as to suggest the motorist’s guilt to a fact-finder. The
result is nearly absurd. The police officer is not authorized to perform the search, and the
motorist is therefore constitutionally entitled to refuse consent to that search. But the
motorist, by doing what he is allowed to do, suffers adverse consequences for refusing to
allow the police officer to do what the officer is not allowed to do.
To take one further step into the illogical, suppose that the motorist agrees to
submit to a breath test, but not to a blood test. The motorist notes that, per the Birchfield
decision, the breath test may be compelled, but an officer must get a search warrant for
a blood test. By all appearances, the motorist is correct, inasmuch as excusing the
warrant requirement for the blood test as well would defeat the purpose of the Birchfield
Court’s distinction between breath and blood. Well, replies the officer, although the
motorist is correct with regard to the lawfulness of criminal penalties that later may attach
to a conviction, and although the officer indeed would need to obtain a search warrant in
order for that consequence to be permissible, the motorist nonetheless must “consent” to
the warrantless blood search, or else face both a lengthy driver’s license suspension and
a prosecutor who will tell the judge or jury that the motorist was behaving as a guilty
person would.
The Majority allows that the warrant requirement applies to blood tests, and that
such a test, “which is conducted when no exceptions to the warrant requirement apply,

[J-103-2018] [MO: Dougherty, J.] - 27

violates the Fourth Amendment rights of a motorist suspected of DUI.” Majority Opinion
at 18. Yet, the Majority contrarily holds that the blood test nonetheless must be conducted
even without a warrant, lest the motorist face the penalty at issue in this case. This can
be regarded as nothing other than an end-run around the warrant requirement—a means
of permitting the impermissible under the dubious fiction of “consent,” where such
“consent” plainly is compelled by the threat of sanctions and thus is “no more than a
pretext for the unjustified police intrusion against which the Fourth Amendment is
directed.” Schneckloth, 412 U.S. at 248. At no point does the Majority offer any reason
as to why police officers cannot simply obtain search warrants for blood tests as a general
matter.
With regard to a motorist’s breath, the search-incident-to-arrest doctrine tethers
the statutory implied consent consequences to a valid warrantless search.

For a

warrantless search of a motorist’s blood, there is a missing link. To maintain the Birchfield
Court’s distinction between breath and blood, and to avoid compromising the bedrock
constitutional doctrines discussed above, we must conclude that using a motorist’s refusal
to consent to a warrantless and otherwise-unjustified blood test as evidence of his
consciousness of guilt unacceptably burdens the motorist’s Fourth Amendment rights.
Because there is no categorical basis for dispensing with the warrant requirement for
blood tests, and because there is a concomitant constitutional right to refuse to consent
to such a warrantless search, the introduction of a motorist’s refusal to consent to a
warrantless blood test as evidence of his guilt is “a penalty imposed by courts for
exercising a constitutional privilege.” Griffin, 380 U.S. at 614. “It cuts down on the
privilege by making its assertion costly.” Id. Because the “only objective” of this practice
is to “discourage the assertion” of that constitutional right so as to avoid the warrant

[J-103-2018] [MO: Dougherty, J.] - 28

requirement, it is “patently unconstitutional” as applied to warrantless blood testing.
Chaffin, 412 U.S. at 32 n.20.
Moreover, because the search warrant process provides a simple, routine, and
well-understood mechanism to validate a blood test, and therefore to establish a
constitutional prerequisite to the imposition of penalties for refusal to comply, the
admission of evidence of refusal to consent to a warrantless blood test not only penalizes
the exercise of a constitutional right, but it does so “needlessly.” Jackson, 390 U.S. at
583 (“Congress cannot impose such a penalty in a manner that needlessly penalizes the
assertion of a constitutional right.”).
Sometimes, Fourth Amendment decisions have difficult consequences, in that they
can result in the unavailability of evidence necessary to prosecute a guilty person. This
is not one of those cases. The evidence that the Commonwealth seeks remains available
in every circumstance, either through a categorically valid warrantless breath test or by
“seeking a warrant for a blood test when there is sufficient time to do so” or “relying on
the exigent circumstances exception to the warrant requirement when there is not.”
Birchfield, 136 S.Ct. at 2184. We need not and should not strain the Fourth Amendment
in order to find ways for the Commonwealth to obtain blood evidence without a search
warrant. Rather, for blood tests, we should simply enforce the Fourth Amendment’s
warrant requirement.
III.

Article I, Section 8 of the Pennsylvania Constitution

For all of the foregoing, I have relied exclusively upon federal constitutional
jurisprudence, which I believe clearly establishes Bell’s entitlement to relief in this matter.
However, as I noted at the outset, Birchfield and McNeely have left significant
unanswered questions in their wake, questions that have placed the governing federal
law “in a state of flux” for the past several years. Pap’s A.M. v. City of Erie, 812 A.2d 591,

[J-103-2018] [MO: Dougherty, J.] - 29

607 (Pa. 2002). Under such circumstances, “this Court has not hesitated to render its
independent judgment as a matter of distinct and enforceable Pennsylvania constitutional
law.” Id. If today’s Majority is unwilling to take the short step necessary to fill in the gaps
left by Birchfield as a matter of federal constitutional law, we should do so under our own
Constitution.9
The Majority concludes that Bell’s substantive claim under the Pennsylvania
Constitution is waived because Bell failed to “develop an argument that the Pennsylvania
Constitution provided any independent grounds for relief” in his pre-trial motion or in his
motion for reconsideration. Majority Opinion at 11. A litigant who already has placed an
issue before the trial court is not required to reassert that issue in a motion for
reconsideration on pain of waiver. The Majority cites no authority for such a conclusion.
Cf. Pa.R.Crim.P. 720(B)(1)(c) (“Issues raised before or during trial shall be deemed
preserved for appeal whether or not the defendant elects to file a post-sentence motion
on those issues.”).
As for the contents of Bell’s pre-trial motion, the Majority cites to the inapposite
case of Commonwealth v. Chamberlain, 30 A.3d 381 (Pa. 2011). Chamberlain, however,
did not involve a Pennsylvania constitutional claim that was underdeveloped below, but,
rather, one that was not raised at all in the trial court. See Chamberlain, 30 A.3d at 4049

As noted above, since this Court undertook consideration of this appeal, the
Supreme Court of the United States decided Mitchell v. Wisconsin. See supra n.1.
Although the Court granted certiorari to decide “[w]hether a statute authorizing a blood
draw from an unconscious motorist provides an exception to the Fourth Amendment
warrant requirement,” Mitchell, 139 S.Ct. at 2532, a plurality of the Court ultimately ruled
upon the basis of the general applicability of the exigent circumstances exception where
a motorist suspected of DUI is “unconscious and therefore cannot be given a breath test.”
Id. at 2531. Mitchell, thus, does not offer any clarity as to the important questions left
open in Birchfield with regard to the contours of “implied consent” or the validity of the
consequences imposed under “implied consent” statutes. Because the High Court again
has left these important questions unresolved, the need for independent consideration
under our own Constitution is all the more acute.

[J-103-2018] [MO: Dougherty, J.] - 30

05 (noting Commonwealth’s argument that claim was waived because “Appellant did not
raise a state due process claim . . . before the trial court”).

Because the claim in

Chamberlain was raised for the first time on appeal, we naturally found it waived under
Pa.R.A.P. 302(a). But Bell expressly raised an Article I, Section 8 claim before the trial
court. See Motion to Dismiss, 3/8/2016, at 2 (“Pennsylvania’s Implied Consent Law
violates Article 1, Section 8 of the Pennsylvania Constitution and the Fourth Amendment
to the United States Constitution under the Unconstitutional Conditions Doctrine.”). As
such, both Rule 302 and the reasoning of Chamberlain are inapplicable here.
All that remains, then, is the Majority’s contention that Bell’s claim was “general”
and thus insufficient under Commonwealth v. Lagenella, 83 A.3d 94, 99 n.3 (Pa. 2013),
Commonwealth v. Galvin, 985 A.2d 783, 793 n.15 (Pa. 2009), and Commonwealth v.
Starr, 664 A.2d 1326, 1334 n.6 (Pa. 1995). See Majority Opinion at 11-12 n.8. The
referenced footnotes contained in Laganella, Galvin, and Starr, however, all merely note
that the respective appellants did not advance the argument in their briefs to this Court,
such that this Court would not embark upon an independent analysis of the Pennsylvania
Constitution sua sponte, and instead would deem the applicable constitutional provisions
to be coterminous for purposes of the decision. Neither Laganella, Galvin, nor Starr found
waiver under Rule 302 for the appellants’ failure to “develop” a Pennsylvania
constitutional claim before the lower court, as the Majority does today. 10
Bell raised his claim before the trial court under the Fourth Amendment and Article
I, Section 8 of the Pennsylvania Constitution. He was the appellee in the Superior Court,
10

To the extent that the Majority’s opinion may be read to suggest that such
“development” necessitates that a challenger present to the trial court an analysis under
Commonwealth v. Edmunds, 586 A.2d 887 (Pa. 1991)—the form of development that this
Court prefers—I emphasize that we never have required such on pain of waiver. See,
e.g., Commonwealth v. Arroyo, 723 A.2d 162, 166 n.6 (Pa. 1999) (failure to engage in an
Edmunds analysis in lower court “does not result in waiver of a state constitutional claim”).

[J-103-2018] [MO: Dougherty, J.] - 31

and thus bore no issue-preservation burden. Bell’s Article I, Section 8 claim was included
expressly within our grant of allocatur.11 Bell develops his claim further before this Court,
and engages in an Edmunds analysis. Under such circumstances, a retrospective finding
of waiver based upon the absence of preferred language in a pre-trial motion is
exceedingly harsh, and leaves future litigants with little guidance regarding the steps that
they must take in the trial court so that this Court will not deem their claims waived.
I would hold simply that blood tests require compliance with the warrant
requirement under Article I, Section 8 of the Pennsylvania Constitution. Resolution of the
remaining questions left open in Birchfield then falls into place.
I respectfully dissent.
Justice Donohue joins this dissenting opinion.

11

We granted allowance of appeal in order to consider:
Whether § 1547(e) of the Vehicle Code, 75 Pa.C.S. § 1547(e), is violative
of Article 1 Section 8 of the Pennsylvania Constitution and the Fourth
Amendment to the United States Constitution to the extent that it permits
evidence of an arrestee’s refusal to submit a sample of blood for testing
without a search warrant as proof of consciousness of guilt at the arrestee’s
trial on a charge of DUI?

Commonwealth v. Bell, 183 A.3d 978 (Pa. 2018) (per curiam) (emphasis added).

[J-103-2018] [MO: Dougherty, J.] - 32

